<html>
<title> - MARKUP OF H.R. 811; CONSIDERATION OF FOUR ELECTION CONTESTS; AND CONSIDERATION OF A COMMITTEE FRANKING ALLOCATION RESOLUTION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
   MARKUP OF H.R. 811; CONSIDERATION OF FOUR ELECTION CONTESTS; AND 
           CONSIDERATION OF A COMMITTEE FRANKING ALLOCATION 
                               RESOLUTION
=======================================================================


                                MEETING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

              MEETING HELD IN WASHINGTON, DC, MAY 8, 2007

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html



                     U.S. GOVERNMENT PRINTING OFFICE

36-562 PDF                 WASHINGTON DC:  2006
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              VERNON J. EHLERS, Michigan,
MICHAEL E. CAPUANO, Massachusetts      Ranking Minority Member
CHARLES A. GONZALEZ, Texas           DANIEL E. LUNGREN, California
SUSAN A. DAVIS, California           KEVIN McCARTHY, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
                 Will Plaster, Minority Staff Director


CONSIDERATION OF H.R. 811; CONSIDERATION OF FOUR ELECTION CONTESTS; AND 
      CONSIDERATION OF A COMMITTEE FRANKING ALLOCATION RESOLUTION

                              ----------                              


                          TUESDAY, MAY 8, 2007

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 1:05 p.m., in room 
1310, Longworth House Office, Hon. Robert A. Brady (chairman of 
the committee) presiding.
    Present: Representatives Brady, Lofgren, Capuano, Gonzalez, 
Davis of California, Davis of Alabama, Ehlers, Lungren, and 
McCarthy.
    Staff Present: Liz Birnbaum, Staff Director; Charles 
Howell, Chief Counsel; Matt Pinkus, Professional Staff/
Parliamentarian; Tom Hicks, Election Counsel; Janelle Hu, 
Election Counsel; Kristin McCowan, Chief Legislative Clerk; 
Robert Henline, Staff Assistant; Fred Hay, Minority General 
Counsel; Gineen Beach, Minority Counsel; and Peter Sloan, 
Minority Professional Staff.
    The Chairman. I would like to call the meeting to order.
    Good afternoon everyone. The first order of business today 
will be the consideration of H.R. 811. On May 2nd, 2007, I 
discharged the Subcommittee on Elections from further 
consideration of that bill pursuant to committee rule 17.
    This is a bill that was very important to Chairwoman 
Millender-McDonald, as she cared deeply that every citizen of 
our great Nation should be able to vote, and that every vote 
should be counted. I now recognize myself for an opening 
statement.
    Today the Committee will mark up H.R. 811, the Voter 
Confidence and Increased Accessibility Act of 2007, which 
amends the Help America Vote Act of 2002, or HAVA. The bill 
will require electronic voting machines to produce a voter 
verified paper ballot for every voter. This paper ballot would 
become the ballot of record in the event of a recount or audit. 
The bill would also mandate routine random audits as prescribed 
by the National Institute of Standards and Technology, and 
preserve and enhance the accountability requirements of HAVA. 
Other requirements are also added for voting systems.
    The Lofgren substitute to be offered today addresses some 
of the concerns that have been raised by voting officials, 
technology companies and other advocates who have previously 
expressed concerns about this bill. I hope that by addressing 
their concerns through this substitute, we can persuade these 
interests to support this vital piece of legislation.
    One of the biggest changes from the original bill is that 
this substitute increases the authorized appropriations from 
$300 million to $1 billion to help States pay for the 
implementation of the new requirements.
    I would now like to recognize Ranking Member Mr. Ehlers for 
his opening statement.
    Mr. Ehlers. I thank the gentleman for yielding. As I stated 
last week, following the decision to postpone the markup, the 
additional days between our last meeting and today's proceeding 
have provided us with an opportunity to review this bill in 
greater detail. Unfortunately, the additional time for review 
has not changed my perception of this bill. As I have said in 
the past, I continue to have deep concerns about H.R. 811. 
Realizing that time is limited, I will summarize just a few of 
them here. Let me emphasize that from the first time Mr. Holt 
introduced this bill, I favored the concept of the bill. The 
difficulty is in the details.
    First the burden placed upon the States by this bill is 
unnecessary, and, by all accounts, unmanageable. Over the past 
several weeks, this committee has heard from Secretaries of 
State, election experts, concerned citizens and other groups 
urging us to reconsider passage of this bill and suggesting 
many amendments.
    Let me just show you what we have received. I don't know 
what the majority has received. These are letters from State 
and county election officials from over 35 States objecting to 
the bill as it was originally introduced and are still 
objecting to the bill, even in spite of the few amendments that 
have been made.
    They are imploring us not to pass this legislation. The 
number has grown since our last meeting and the letters 
continue to come in from across the Nation. These are the 
people who are most familiar with our election systems, telling 
us that they simply cannot effectively administer the 2008 
election if Congress ignores their pleas and forces this 
legislation upon them.
    There are other factors. One of the chief provisions in 
H.R. 811 is the voter verified paper trail. As I have stated in 
the past, I am not generally opposed to the idea of a redundant 
method of capturing vote totals, but I believe all avenues 
should be explored to accomplish duplicate capture of this 
information--not just paper.
    As we all saw in the 2000 elections, in the days of hanging 
and pregnant chads, paper is far from foolproof. For example 
the punch card ballots are paper and that is what started this 
whole reform effort because people were not happy with that. We 
owe it to the American public to give thoughtful consideration 
to what method of duplicate capture votes would serve them 
best. I have not seen any effort by this committee to do that. 
To resort back to paper without additional research into 
alternative technologies that may be more reliable would be 
hasty and ill-advised.
    In addition, the VVPAT puts visually impaired voters at a 
greater advantage than those with other types disabilities 
creating an even larger disparity between segments of the 
disabled community and the general public. Intellectual 
property issues are also an area of concern, since this bill 
prescribes that electronic voting machine vendors must reveal 
propriety source codes for inspection by outside entities.
    Not only will taking such steps compromise the integrity of 
this system and put it at high risk of malfeasance, but taking 
some drastic measures will also limit the desire of these 
companies to continue to develop new technologies and improve 
their existing systems.
    Common sense will tell you if a businessman is required to 
give away his product for free--in this case, the product being 
the source code--you have also taken away his motivation to 
continue enhancing that product. We would be, in effect, 
cutting off our collective nose to spite our face if we took 
away the desire of these vendors to continually improve their 
technologies.
    Let me also decry the fact that while under HAVA, we worked 
very hard between the House and the Senate, with both parties 
involved in constant meetings to try to work out differences. 
In this case, we are rushing this bill through without adequate 
consultation between the parties, without an opportunity to 
hear our concerns expressed and to work with the Senate on this 
bill.
    Another area of concern is the funding request in the 
legislation which a number of election experts have said will 
be inadequate, leaving taxpayers holding the bill. We have a 
duty to spend the public's money wisely. Using it to implement 
legislation that the States have told us they can't comply with 
in time for the next election, corporations have told us 
compromises their financial health and the disabled community 
has told us puts them at greater disadvantage, is reckless.
    Finally, we will propose several amendments today that 
address weaknesses of H.R. 811, and I appreciate the thoughtful 
consideration of all the Members of this Committee when voting 
on these changes. HAVA effected meaningful change that met the 
shared goals of both the majority and minority parties to 
improve our Nation's voting system. HAVA also worked very hard 
with the voting officials from all the States. I am hopeful we 
will be able to change course today and put aside partisanship 
to achieve our shared objectives with this bill and many other 
measures to come.
    Thank you.
    The Chairman. Thank you. Are there any other opening 
statements?
    Ms. Lofgren. Mr. Chairman.
    The Chairman. Gentlelady from California Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. I would like to thank 
Congressman Rush Holt for introducing H.R. 811, the Voter 
Confidence and Increased Accessibility Act of 2007. As of this 
morning, H.R. 811 has 212 cosponsors, both Republicans and 
Democrats. It is a bipartisan bill with bipartisan support. 
Politics and political affiliation should not keep us from 
making the changes needed to restore the confidence of our 
citizens in the electoral process. Our election process must be 
open and transparent to ensure public confidence.
    Over the past few months we have held hearings in the 
Election Subcommittee that I chair on issues dealing with H.R. 
811. We have heard about problems faced by voters who need 
machines with disability access. We have listened to State and 
local election officials with very differing points of view. 
Some have no problems with their current voting systems while a 
majority of others find that the path to a transparent 
electoral process is through a voter verifiable paper trail.
    We have also heard from the guys I represent, the geek 
squad, as I like to refer to them, about voting systems 
software. The technology behind these voting systems needs to 
be accessible to the Government entities, academic experts and 
parties to ligation. That technology must also be tested and 
certified by labs that are, in no way, connected to interested 
parties.
    We have also spent time going through the audit process and 
the best ways to count ballots to ensure voter confidence. In 
the hearings, we have heard many different points of view. I 
will offer, at the conclusion of my remarks, an amendment in 
the nature of a substitute and will discuss the merits of that 
during the debate on that motion, the substitute motion. We 
have received letters of support from voting rights activists 
and countless individuals, and when our colleague, Mr. Ehlers, 
held up his stack, I asked the staff to bring those boxes up 
and put those on the table because within those boxes are 
185,000 signatures in support of the whole bill, one signature 
roughly for every precinct in the United States. Additionally, 
20,497 signatures additionally sent in favor of this bill.
    We have groups in support of H.R. 811, Common Cause, the 
Lawyers Committee For Civil Rights, Vote Trust U.S.A., the 
Electronic Frontier Foundation, and on and on. I ask unanimous 
support to put the list in record.
    We have heard the concerns of State and local election 
officials and will try to address them in the substitute, but 
we cannot let a flawed voting system continue. I know there are 
members of this House who do not feel that we need to make 
changes in our voting system.
    There are Members who think the best way to go is to leave 
our voting system untouched or to provide very vague guidance 
for improvement. While I wish we can just ask that our voting 
system be improved and it would happen, history has taught us 
that this does not always work. We cannot be faced with more 
Federal elections that are fundamentally flawed.
    The integrity of our voting system and voter confidence 
must be ensured for 2008 and beyond. And H.R. 811 is the first 
step in gaining the trust of the American voters and to get 
that trust back. So Mr. Chairman, I would be pleased to offer 
my substitute for consideration and do offer my substitute for 
H.R. 811 for consideration.
    The Chairman. I thank the gentlelady. Are there any other 
opening statements?
    Hearing no opening statements, the Chair now calls up and 
lays before the Committee H.R. 811, a bill to amend the Help 
America Vote Act of 2002, to require a voter-verified permanent 
paper ballot under title III of such Act, and for other 
purposes.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.001
    
    [GRAPHIC] [TIFF OMITTED] 36562.002
    
    [GRAPHIC] [TIFF OMITTED] 36562.003
    
    [GRAPHIC] [TIFF OMITTED] 36562.004
    
    [GRAPHIC] [TIFF OMITTED] 36562.005
    
    [GRAPHIC] [TIFF OMITTED] 36562.006
    
    [GRAPHIC] [TIFF OMITTED] 36562.007
    
    [GRAPHIC] [TIFF OMITTED] 36562.008
    
    [GRAPHIC] [TIFF OMITTED] 36562.009
    
    [GRAPHIC] [TIFF OMITTED] 36562.010
    
    [GRAPHIC] [TIFF OMITTED] 36562.011
    
    [GRAPHIC] [TIFF OMITTED] 36562.012
    
    [GRAPHIC] [TIFF OMITTED] 36562.013
    
    [GRAPHIC] [TIFF OMITTED] 36562.014
    
    [GRAPHIC] [TIFF OMITTED] 36562.015
    
    [GRAPHIC] [TIFF OMITTED] 36562.016
    
    [GRAPHIC] [TIFF OMITTED] 36562.017
    
    [GRAPHIC] [TIFF OMITTED] 36562.018
    
    [GRAPHIC] [TIFF OMITTED] 36562.019
    
    [GRAPHIC] [TIFF OMITTED] 36562.020
    
    [GRAPHIC] [TIFF OMITTED] 36562.021
    
    [GRAPHIC] [TIFF OMITTED] 36562.022
    
    [GRAPHIC] [TIFF OMITTED] 36562.023
    
    [GRAPHIC] [TIFF OMITTED] 36562.024
    
    [GRAPHIC] [TIFF OMITTED] 36562.025
    
    [GRAPHIC] [TIFF OMITTED] 36562.026
    
    [GRAPHIC] [TIFF OMITTED] 36562.027
    
    [GRAPHIC] [TIFF OMITTED] 36562.028
    
    [GRAPHIC] [TIFF OMITTED] 36562.029
    
    [GRAPHIC] [TIFF OMITTED] 36562.030
    
    [GRAPHIC] [TIFF OMITTED] 36562.031
    
    [GRAPHIC] [TIFF OMITTED] 36562.032
    
    [GRAPHIC] [TIFF OMITTED] 36562.033
    
    [GRAPHIC] [TIFF OMITTED] 36562.034
    
    [GRAPHIC] [TIFF OMITTED] 36562.035
    
    [GRAPHIC] [TIFF OMITTED] 36562.036
    
    [GRAPHIC] [TIFF OMITTED] 36562.037
    
    [GRAPHIC] [TIFF OMITTED] 36562.038
    
    [GRAPHIC] [TIFF OMITTED] 36562.039
    
    [GRAPHIC] [TIFF OMITTED] 36562.040
    
    [GRAPHIC] [TIFF OMITTED] 36562.041
    
    [GRAPHIC] [TIFF OMITTED] 36562.042
    
    [GRAPHIC] [TIFF OMITTED] 36562.043
    
    [GRAPHIC] [TIFF OMITTED] 36562.044
    
    [GRAPHIC] [TIFF OMITTED] 36562.045
    
    [GRAPHIC] [TIFF OMITTED] 36562.046
    
    [GRAPHIC] [TIFF OMITTED] 36562.047
    
    Ms. Lofgren. Mr. Chairman I offer my substitute as an 
amendment.
    The Chairman. Without objection, the first reading of the 
bill will be dispensed with and without objection, the bill 
will be considered as read and open to amendment at any point. 
Maybe before I recognize you, we should recess to go vote and 
come back and I will recognize you for your statement. Thank 
you all. We are recessed until after the vote. I think we have 
three votes on the floor.
    [Recess.]
    The Chairman. I would like to call the meeting of the 
Committee on House Administration back to order. The Chair now 
recognizes the gentlewoman from California. Ms. Lofgren, 
Chairwoman of the Subcommittee on Elections, held three 
hearings on this bill in preparation for today's markup.
    Ms. Lofgren. Mr. Chairman, I am chomping at the bit to 
offer my substitute to the amendment, and I do so at this time.
    The Chairman. The amendment has been distributed to the 
Members. Without objection, the reading of the amendment will 
be dispensed with. The gentlelady from California is recognized 
for five minutes in support of her amendment.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.048
    
    [GRAPHIC] [TIFF OMITTED] 36562.049
    
    [GRAPHIC] [TIFF OMITTED] 36562.050
    
    [GRAPHIC] [TIFF OMITTED] 36562.051
    
    [GRAPHIC] [TIFF OMITTED] 36562.052
    
    [GRAPHIC] [TIFF OMITTED] 36562.053
    
    [GRAPHIC] [TIFF OMITTED] 36562.054
    
    [GRAPHIC] [TIFF OMITTED] 36562.055
    
    [GRAPHIC] [TIFF OMITTED] 36562.056
    
    [GRAPHIC] [TIFF OMITTED] 36562.057
    
    [GRAPHIC] [TIFF OMITTED] 36562.058
    
    [GRAPHIC] [TIFF OMITTED] 36562.059
    
    [GRAPHIC] [TIFF OMITTED] 36562.060
    
    [GRAPHIC] [TIFF OMITTED] 36562.061
    
    [GRAPHIC] [TIFF OMITTED] 36562.062
    
    [GRAPHIC] [TIFF OMITTED] 36562.063
    
    [GRAPHIC] [TIFF OMITTED] 36562.064
    
    [GRAPHIC] [TIFF OMITTED] 36562.065
    
    [GRAPHIC] [TIFF OMITTED] 36562.066
    
    [GRAPHIC] [TIFF OMITTED] 36562.067
    
    [GRAPHIC] [TIFF OMITTED] 36562.068
    
    [GRAPHIC] [TIFF OMITTED] 36562.069
    
    [GRAPHIC] [TIFF OMITTED] 36562.070
    
    [GRAPHIC] [TIFF OMITTED] 36562.071
    
    [GRAPHIC] [TIFF OMITTED] 36562.072
    
    [GRAPHIC] [TIFF OMITTED] 36562.073
    
    [GRAPHIC] [TIFF OMITTED] 36562.074
    
    [GRAPHIC] [TIFF OMITTED] 36562.075
    
    [GRAPHIC] [TIFF OMITTED] 36562.076
    
    [GRAPHIC] [TIFF OMITTED] 36562.077
    
    [GRAPHIC] [TIFF OMITTED] 36562.078
    
    [GRAPHIC] [TIFF OMITTED] 36562.079
    
    [GRAPHIC] [TIFF OMITTED] 36562.080
    
    [GRAPHIC] [TIFF OMITTED] 36562.081
    
    [GRAPHIC] [TIFF OMITTED] 36562.082
    
    [GRAPHIC] [TIFF OMITTED] 36562.083
    
    [GRAPHIC] [TIFF OMITTED] 36562.084
    
    [GRAPHIC] [TIFF OMITTED] 36562.085
    
    [GRAPHIC] [TIFF OMITTED] 36562.086
    
    [GRAPHIC] [TIFF OMITTED] 36562.087
    
    [GRAPHIC] [TIFF OMITTED] 36562.088
    
    [GRAPHIC] [TIFF OMITTED] 36562.089
    
    [GRAPHIC] [TIFF OMITTED] 36562.090
    
    [GRAPHIC] [TIFF OMITTED] 36562.091
    
    [GRAPHIC] [TIFF OMITTED] 36562.092
    
    [GRAPHIC] [TIFF OMITTED] 36562.093
    
    [GRAPHIC] [TIFF OMITTED] 36562.094
    
    [GRAPHIC] [TIFF OMITTED] 36562.095
    
    [GRAPHIC] [TIFF OMITTED] 36562.096
    
    [GRAPHIC] [TIFF OMITTED] 36562.097
    
    [GRAPHIC] [TIFF OMITTED] 36562.098
    
    [GRAPHIC] [TIFF OMITTED] 36562.099
    
    [GRAPHIC] [TIFF OMITTED] 36562.100
    
    [GRAPHIC] [TIFF OMITTED] 36562.101
    
    [GRAPHIC] [TIFF OMITTED] 36562.102
    
    [GRAPHIC] [TIFF OMITTED] 36562.103
    
    [GRAPHIC] [TIFF OMITTED] 36562.104
    
    [GRAPHIC] [TIFF OMITTED] 36562.105
    
    Ms. Lofgren. My amendment is an attempt to meet the 
concerns or many of the concerns that were raised by various 
parties during the hearings and subsequent to them.
    There is no systematic auditing in place to catch the 
problems in Federal elections. The substitute language modifies 
the audit section by allowing States to create their own audit 
entity which is independent and nonpartisan. It also allows 
State and locals to choose to use the tiered audit formula 
outlined in the bill or to develop an audit that is deemed 
statistically equivalent by NIST.
    We have also clarified language, providing definitions for 
terms such as durable paper and language explaining that 
clearly readable by a voter now includes a reference to eye 
glasses or corrective lenses, a suggestion made by the 
minority. This is language actually in their amendment.
    Recognizing that the software issue has been a key concern 
for many who vote, the tech sector and the media, we have also 
modified the disclosure and security requirements to make them 
more practicable, and I will say that in extensive meetings 
with the software community, and specifically the business 
software alliance, I am advised that the business software 
alliance does not oppose the language that we have in this 
substitute.
    Their concerns about protecting intellectual property 
rights of voting systems and the like, we have modified the 
disclosure language to recognize these rights, while at the 
same time, allowing parties to litigation and experts access to 
information necessary to ensure the integrity of the voting 
system. The substitute also recognizes the need for more time, 
but balances the concerns of voters by providing waivers for 
some State and locals to move to paper ballots.
    All paper-based systems including thermal reel to reel 
systems and accessible systems that used or produced a paper 
ballot in 2006 can be used until 2010 and the waiver for 
thermal reel to reel is the new addition to the bill, since 
last week as a result of us having time to read the minority 
amendments.
    Only six States will be required to replace all voting 
machines by 2008. Those States would be Delaware, Georgia, 
Louisiana, Maryland, South Carolina, and Tennessee. A total of 
only 13 States will be required to place some of their voting 
machines by 2008. The time factor is also the reason we have 
made provisions to allow for States with legislatures that 
don't meet every year. We recognize that these changes are not 
going to be inexpensive. The substitute also includes the 
authorization of $1 billion and a formula to the allocation of 
these funds.
    We believe that this substitute deals with all of the 
issues that can be dealt with. I will note, I know that Mr. 
Ehlers will be offering a substitute to the substitute with the 
timeline that is not aggressive enough. A 2014 deadline 
delaying the implementation beyond 2008 will just cause further 
problems and distrust, and we also cannot place NIST in a 
position to set standards that are impossible. The Association 
For Computing Machinery, having reviewed the minority 
substitute, believes their amendment has some impractical 
computer security provisions as well.
    So in short, I think the substitute deals with the issues 
that can be dealt with. It has dealt with the technology 
issues, which is why the business software alliance does not 
oppose it. And I believe it will restore integrity to our 
voting systems and also confidence in our electoral process. So 
with that, Mr. Chairman, I move to yield back.
    The Chairman. I thank the gentlelady. I recognize Mr. 
Ehlers, the Ranking Member.
    Mr. Ehlers. Thank you, Mr. Chairman.
    I appreciate that.
    The gentlewoman commented that her substitute deals with 
all the questions that can be dealt with. My question is: Do 
they deal with all the questions raised by election officials 
as contained by this stack of letters that we have?
    Ms. Lofgren. If I may, and you can see I am about out the 
door because I have a roomful of people waiting for me and I 
will be back to the markup--I think--in answer, if the 
gentleman will yield--some of the issues cannot be dealt with 
because they are offered by people who do not want change. I 
believe that the country wants change. And so we have dealt 
with those issues that can be dealt with while still proceeding 
with change for those who do not want change, we are saying we 
are sorry, but the country needs change and I yield back.
    Mr. Ehlers. Reclaiming my time. I don't think we need 
change for the sake of change, but we certainly need 
improvement. I am willing to support and vote for improvement. 
What I see in this substitute is not improvement but more 
problems, more difficulties, and more than we have had in HAVA 
so far. I am very concerned about that. I would be happy to sit 
down with the majority and try to hammer out an agreement. That 
hasn't occurred. It has all been just take it or leave it, and 
so we will be offering amendments. We will offer a different 
substitute.
    Let me just say, I am concerned about the workability. 
Certainly, we cannot meet the 2008 deadline. That is clear in 
all the communications we have had from State and local people. 
Given that, then, how can we improve the bill?
    Let me just ask a few questions. States like Maryland and 
Georgia--I don't know who is going to answer this since the 
sponsor has left. But States like Maryland and Georgia have to 
acquire a paper-based system under this bill because they use 
paperless DREs as primary and accessible voting machines. What 
voting systems could these States get that allows a blind 
person to verify their vote? I don't know if there is an answer 
from anyone on the minority side or not. In HAVA, we worked 
very hard----
    Mr. Lungren. Majority side.
    Mr. Ehlers. I am sorry. I wish you wouldn't keep reminding 
me of that.
    The Chairman. I noticed one of your own reminded you. We 
know where we are at, and we are still trying to handle it.
    Mr. Ehlers. I am afraid you do. Anyone have any response to 
that question?
    Another question, does this bill outlaw lever systems, the 
old stand-by voting machines, which, incidentally, were 
instituted to get rid of the corruption that was endemic with 
paper ballots.
    Apparently no answer is available.
    Another question, what voting systems currently exist for 
purchase that meet the requirements in the bill?
    The Chairman. With all due respect, the lady that held the 
hearings isn't here at the moment to answer the question. She 
held the hearings and I am sure she has the answers to them and 
when she comes back we will have her address them.
    Mr. Ehlers. In that case, I will yield back and ask my 
colleagues.
    The Chairman. Did you offer a substitute? I don't know 
whether you offered it or you just had a comment.
    Mr. Ehlers. I have a substitute to offer which is a 
substitute to their substitute.
    The Chairman. She offered the substitute and without 
objection, the substitute amendment is considered as read and 
you are recognized now. I would like to recognize Mr. Lungren 
from California.
    Mr. Lungren. Thank you very much, Mr. Chairman. This is an 
interesting moment for me. I was not here when HAVA was passed, 
but I recall watching with interest the actions of the Congress 
at that time, and with all due respect, much of what the 
gentlelady from California said we are about to do now and why 
we have to do it now, is reminiscent of what was said when we 
passed HAVA just a few years ago, and the machines we are now 
concerned about are the machines that were purchased pursuant 
to HAVA, and now we are coming up again with our solution.
    And I would reject the notion that the election officials 
who have complained about the contours of this bill in terms of 
its impracticality and in terms of its uncertainty are all 
those who don't wish to make any change. I have here a letter 
from the American Association of People With Disabilities, the 
largest cross disability membership organization in the 
country. They support voting systems that are accessible, 
secure, accurate and recountable. These are their words. But in 
order for them to support this bill, they say it would require 
delaying the implementation date until 2014. They are doing 
this because they say the 2014 implementation date is realistic 
based on the experience of voting equipment manufacturers and 
election officials.
    That is not a group that is against change. It is a group 
that is against a version of a bill will make it impossible to 
succeed. The election officials in California have sent a 
letter talking about the impracticality of this approach. The 
letter that we received on April 25th from Karen Kean, the 
legislative, excuse me from Stephen Weir, the President of the 
California Association of Clerks and Elected Officials, 
expresses the concerns that they have.
    I have letters from individual election officers in 
counties from my State. They are not opposed to changes that 
would make it effective, but they are very concerned about this 
bill that we have.
    And so I hope that we are just not going to accept at face 
value that anybody who is opposed to the version of the bill 
that has been presented to us or the substitute presented to us 
by the gentlelady from California are against change or against 
ensuring that we have access to our polling places, that we 
have the ability for people to vote and not be confused about 
how they vote and the ability for us to ensure the integrity of 
the system.
    I appreciate the fact that my friend, the gentlelady from 
California, had to leave but it makes it very difficult for us 
to ask questions about the version that has just been presented 
to us so that we can not only talk about the general outlines 
of this, but so we can ask specific questions that would govern 
our introduction of several amendments to deal with the issues 
that we find as we read this bill.
    In short, Mr. Chairman, I am concerned about the Federal 
Government now telling the States that they have screwed up 
based on what we told them to do just a couple of years ago. 
The HAVA bill, as I understand it, authorized $3.2 billion to 
assist the States in this. And ultimately, the Congress got 
around to giving them $800 million. Now we are telling them 
trust us, we are going to give you a billion dollars to do this 
in the time limits that we have. And I think it is certainly 
realistic for them to have some concerns about this.
    So, Mr. Chairman, I hope we will have ample time for debate 
on the substance of what is before us and also on the 
amendments that we have drawn hopefully to the substitute that 
is here and take into concern the very specific questions we 
have about the bill as it has been presented to us. And I thank 
the chairman for the time.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.106
    
    [GRAPHIC] [TIFF OMITTED] 36562.107
    
    The Chairman. Thank you.
    Mr. Ehlers, I think you had a substitute and I think that I 
want to recognize you for five minutes to speak on your 
substitute.
    Mr. Ehlers. On this substitute or on my substitute?
    The Chairman. Your substitute, we are on your substitute 
now.
    Mr. McCarthy. I was just going to ask a point of 
information. I am a little confused about where we are 
currently because the gentlewoman from California left. Are we 
going to debate her bill are we going to recess until she comes 
back?
    The Chairman. She introduced her substitute, and I thought 
Mr. Ehlers introduced a substitute to her substitute.
    Mr. McCarthy. Did you make a motion?
    Mr. Ehlers. I have not offered my substitute.
    The Chairman. We are still on Lofgren substitute. I would 
like to recognize Mr. Capuano.
    Mr. Capuano. I want to make it clear. I voted against HAVA 
when it was first proposed. I voted against it because of a lot 
of things that happened since then. I thought I was right then 
and in hindsight, I think I was right still. But at the same 
time, we weren't allowed to offer amendments. We weren't 
allowed to have discussions in a serious way. I am a former 
elected official--a formal locally elected official--a former 
mayor.
    Mr. Ehlers. You are working on it?
    Mr. Capuano. Not yet. I will leave that one alone.
    But as a former mayor, we ran elections. I have hands-on 
experience with picking machines, talking to election 
officials, making sure that elections, both State, Federal and 
local, were run appropriately. The HAVA bill did not assure me 
in any level that number one, the money was going to be there; 
number two, that the bad actors were going to be told given 
standards; number 3 that the good actors were in any way going 
to be encouraged to continue to be good actors.
    So that was an easy vote for me. I agree that some of the 
provisions in the bill are still not done yet. I don't have any 
problem with that. I have yet to see a bill ever that is 
perfect no matter how you look at it.
    I do, however, believe this bill is a significant step in 
the right direction, as I understand, I am relatively familiar 
with most of the provisions in the substitute, I think it is 
still a step forward. There are still some problems I have with 
it. But again, I could sit here and talk about the negative or 
the positive. And the negative, there is still some time in the 
process for me to have input and everybody have input to make 
it better.
    At the same time, I think it is the right thing to do to 
move this bill forward, continue to work on it to make it 
better as we all see making it better might decide, let the 
process work and get this going. Because I think everybody can 
sit here today--I don't think anybody is going to argue that 
the process we have now, current law we are living under now is 
a good law.
    HAVA had huge holes in it. And if we can't fix every one of 
them, if we are not going to be able to address every single 
issue that is of concern to each and every one of us, that is 
not an argument not to make significant progress. So I want to 
make it clear. I voted against HAVA. I am glad I voted against 
HAVA. But I intend to vote for this bill. And I hope between 
now and the team, it actually gets to the President's desk, 
there is still some things I would like to have further 
discussion on as well, and I think there will be plenty of 
opportunity for all of us to do that. Thank you, Mr. Chairman.
    The Chairman. Thank you. The gentleman from California Mr. 
McCarthy.
    Mr. McCarthy. Mr. Chairman, if I can just ask a point of 
information. Is the time that is allotted right now my 5 
minutes, taking my 5 minutes to ask questions about this bill?
    The Chairman. You have five minutes now on the Lofgren 
substitute.
    Mr. McCarthy. Mr. Chairman if I may, I would like to 
withhold and I would like to allow others to go before me. I 
would wait until somebody comes back that can answer the 
questions on the bill if I may.
    The Chairman. Well, she is not here at the moment, but she 
will be back. Hopefully she will come back in time and you will 
have a chance to ask her questions, but right now we are going 
to move forward on her substitute.
    Mr. McCarthy. Mr. Chairman, I was the ranking member on the 
subcommittee that dealt--we did three hearings on this and I am 
very concerned. Couple of points. This bill you have mentioned, 
it wasn't ready. We have got a presidential election coming up 
where primaries are moved up. Florida is moving up to January. 
My home State moved it up to February. And we are now going to 
gut the system and change the system when we haven't finished 
even going through the HAVA and finishing paying and now we 
want to move a bill today that we had to postpone from last 
week and we don't have the ability to debate it? I am very 
concerned because in these hearings, many of you weren't able 
to be here because you weren't on the subcommittee. But 
election official after election official has come before us 
and said, this bill is not ready.
    And I think we are making a major decision here, one, with 
the lack of debate; two, with the inability to answer the 
questions, and I think from a perspective when we come to this 
issue, we should put people before politics. This shouldn't be 
a partisan issue, a partisan debate. And I don't think you 
would see it on this side of the aisle.
    But from my point of view, I am feeling frustrated because 
this is such a serious issue that we don't have the ability to 
debate it. We don't have the ability to answer the question. 
And we may be able to come to a point where we find common 
ground.
     So with all due respect, I am just asking for the point 
that I would gladly wait until she is back into the room where 
maybe we could find a place that we can get to. I yield back my 
time to you.
    The Chairman. If we could maybe hear Mr. Ehlers' 
substitute, debate that, vote on that and by that time Ms. 
Lofgren should be back and we can ask her questions then.
    Mr. Lungren. Is the suggestion that Mr. Ehlers' substitute 
is not going to be adopted?
    The Chairman. We don't know. We have to vote on that. We 
will have a vote.
    Mr. Ehlers. If I may reclaim the time I yielded back 
earlier. I was just so surprised that the offerer of the 
substitute immediately left the room making it impossible to 
ask questions or get answers. I share Mr. McCarthy's 
frustration on that.
    My problem is, as Mr. Capuano's about HAVA, it is a 
process. I would like to work together, have this be a 
bipartisan bill as HAVA was. I would like to work with the 
Senate, have it be a bicameral bill as HAVA was. I have already 
been told by people in the Senate that this version, even 
though with the substitute, is dead on arrival there, it seems 
like a waste of time to work on a bill that is going to be 
totally forgotten about once it reaches the Senate and they 
plan to write their own.
    So it is just a very confusing process. I suppose I could 
offer my substitute and run out of the room to avoid anyone 
asking any questions on it.
    But that is a hard way to accomplish progress. So Mr. 
Chairman, I understand the spot you are in. You are not 
responsible for what your Members do, but it is very 
disconcerting to try to have a discussion when one party leaves 
the room. I will yield back.
    The Chairman. We made an accommodation we will come back to 
that when it comes in, if it is dead on arrival I don't know 
why you are offering amendments on substitutes but we are 
allowing you to do that also. Oh, his isn't dead on arrival, 
only ours is dead on arrival.
    I now recognize the Ranking Member for the substitute.
    Mr. Ehlers. To try to move things along, Mr. Chairman, let 
me just say I have an amendment at the desk.
    The Chairman. Without objection, the substitute is 
considered as read and the gentleman is recognized for five 
minutes.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.108
    
    [GRAPHIC] [TIFF OMITTED] 36562.109
    
    [GRAPHIC] [TIFF OMITTED] 36562.110
    
    [GRAPHIC] [TIFF OMITTED] 36562.111
    
    [GRAPHIC] [TIFF OMITTED] 36562.112
    
    [GRAPHIC] [TIFF OMITTED] 36562.113
    
    [GRAPHIC] [TIFF OMITTED] 36562.114
    
    [GRAPHIC] [TIFF OMITTED] 36562.115
    
    [GRAPHIC] [TIFF OMITTED] 36562.116
    
    Mr. Ehlers. I thank the gentleman for yielding. What we 
have tried to do is make an honest effort to improve the bill 
as submitted and the version that this committee had originally 
developed, the majority of the committee had originally 
developed. It directs the Election Assistance Commission, with 
the help of NIST, to establish guidelines and standards for new 
Federal election equipment by January 1, 2010. Everyone we have 
talked to, all of the election officials, State election 
officials said 2008 is simply impossible.
    I take their word for that. They are the experts. So we 
have tried for 2010 effective date. This provides a technology 
that allows a contemporaneous, redundant and auditable trail of 
votes cast recorded on such equipment which was the purpose of 
the original Holt bill.
    It provides a technology that allows each individual who is 
eligible to vote in such an election to verify the ballot 
before the individual's vote is cast into the equipment.
    It provides a technology that ensures reliable security of 
the equipment from tampering or improper use. It provides a 
technology that ensures that individuals with disabilities who 
are eligible to vote in the election can vote independently and 
without assistance.
    States would need to be compliant with the new guidelines 
and standards as soon as they are able to do that. We estimate 
by 2014, they would certainly have everything in place and 
available for use. The real item that sticks in the craw of the 
States is the plan for audits. States are ready to have their 
own audits. They resent being told by the Federal Government 
how they should handle their audits. In particular, most States 
who have talked to me believe that the proposal in the bill is 
worse than nothing because it interferes with a recount 
process, interferes with a board of canvass review, and it does 
not really accomplish the audit the way it should be 
accomplished.
    State security plans. States would have to submit to the 
Election Assistance Commission by January 1, 2008, security 
protocols as far as voting machines and administering 
elections. So every State would have to prepare its security 
plan.
    State contingency plans. Each State must submit to the EAC 
by January 1, 2008 its contingency plans for election day 
emergencies or voting machine malfunctions. Plans must include 
a polling place and emergency ballot protocols.
    There are many other factors that make this substitute 
better than the Lofgren substitute. It is supported by the 
National Association of Counties, because they realize this 
approach fits with the proven idea of allowing the States to 
have the flexibility to meet Federal requirements in election 
law. H.R. 811 directly undermines the valuable gains from HAVA 
and takes us back to 19th century election systems and 
procedures.
    My substitute looks to use technology to improve the voting 
system, not revert back to requirements and problematic paper. 
It has been 5 years since the enactment of HAVA, and there are 
still States that have yet to fully comply with requirements. 
Until that happens, we are unable to accurately measure its 
successes and shortcomings. My substitute allows for enough 
time to rationally make changes to this system.
    Recently, EAC commissioner Gracia Hillman testified during 
an Oversight and Government Reform Subcommittee hearing that if 
H.R. 811 were enacted, over 180,000 voting machines would need 
to be replaced or upgraded nationwide for the 2008 elections. 
Another factor there is technology being developed that would 
be accessible to disabled voters and allow them to verify their 
vote independently and privately. That technology is not yet 
ready available or certified.
    Mississippi Secretary of State Eric Clark testified there 
is no way under the sun we--that is State election 
administrators--can make the kind of changes that are 
contemplated in H.R. 811 by next year's elections.
    George Gilbert stated we are concerned that the 
implementation date of 2008 would actually collapse the 
election system. I could go on and on with this. But the pulp 
is simply the Lofgren substitute does not solve the problems in 
H.R. 811. It is a noble attempt, but it doesn't accomplish it. 
I believe that my substitute does accomplish what H.R. 811 
wants to accomplish, and it does so in a workable fashion. With 
that, I yield back the balance of my time.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.117
    
    [GRAPHIC] [TIFF OMITTED] 36562.118
    
    [GRAPHIC] [TIFF OMITTED] 36562.119
    
    [GRAPHIC] [TIFF OMITTED] 36562.120
    
    [GRAPHIC] [TIFF OMITTED] 36562.121
    
    [GRAPHIC] [TIFF OMITTED] 36562.122
    
    [GRAPHIC] [TIFF OMITTED] 36562.123
    
    [GRAPHIC] [TIFF OMITTED] 36562.220
    
    [GRAPHIC] [TIFF OMITTED] 36562.221
    
    [GRAPHIC] [TIFF OMITTED] 36562.222
    
    [GRAPHIC] [TIFF OMITTED] 36562.223
    
    [GRAPHIC] [TIFF OMITTED] 36562.224
    
    [GRAPHIC] [TIFF OMITTED] 36562.225
    
    [GRAPHIC] [TIFF OMITTED] 36562.226
    
    [GRAPHIC] [TIFF OMITTED] 36562.227
    
    [GRAPHIC] [TIFF OMITTED] 36562.228
    
    [GRAPHIC] [TIFF OMITTED] 36562.229
    
    The Chairman. I thank the gentleman. The question is on 
agreeing to the Ehlers substitute amendment to the Lofgren 
substitute. All of those in favor signify by saying ``aye.'' 
All those opposed, ``no.'' No. The noes have it.
    Mr. Ehlers. I ask for a roll call.
    The Chairman. The Clerk will call the roll.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    Mr. Gonzalez. No.
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Davis of Alabama.
    Mr. Davis of Alabama. No.
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. Aye.
    The Clerk. Mr. Lungren.
    Mr. Lungren. Aye.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Aye.
    The Clerk. Mr. Chairman.
    The Chairman. No. The amendment is not agreed to. The noes 
are 5, the ayes are 3. The amendment is not agreed to.
    Mr. Ehlers. Not to be--Mr. Chairman. I have a number of 
amendments, individual amendments to the substitute, to offer.
    The Chairman. Well, right now I need to recognize the 
gentleman from Texas.
    Mr. Gonzalez. Thank you very much Mr. Chairman. I do have 
an amendment to the substitute by Ms. Lofgren. And I ask for 
unanimous consent to consider it as read.
    The Chairman. Without objection. Do they have a copy of the 
amendment? The gentleman from Texas is recognized for five 
minutes.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.129
    
    [GRAPHIC] [TIFF OMITTED] 36562.130
    
    Mr. Gonzalez. I did inquire of staff because I wanted to 
make sure that you had the amendments. My understanding is that 
they were distributed prior to the calling of order of the 
committee, but surely they are not available, let's go ahead, 
these are technical conforming----
    The Chairman. Technical perfecting amendment.
    Mr. Gonzalez. Yes. If I could be recognized for a few 
minutes, maybe my explanation will be adequate or sufficient. I 
don't think that members on the minority side are going to find 
anything objectionable.
    This amendment makes technical and conforming changes to 
ensure this bill is consistent and accurate. The first change 
ensures that we are consistent in making the independent 
testing agencies the escrow entities for voting software and 
not the Commission.
    The Commission is listed on page 17 of the bill where it 
should read ``laboratory accredited under section 231.'' The 
second change being made here is to include manufacturers in 
reporting security standards if requested by the Commission. On 
page 18, line 5, it should read ``manufacturer or appropriate 
election official.''
    And as I said, these are just basically conforming and 
changes one amendment, two minor changes. There were 
inconsistencies, we were making reference to commissions and so 
on. I yield back, Mr. Chairman.
    The Chairman. I thank the gentleman. Yes. Ranking Member, 
Mr. Ehlers.
    Mr. Ehlers. The gentleman from Texas indicated that the 
minority could not find anything wrong with this. He sorely 
underestimates us, but in the hope of speeding things along, I 
am prepared to accept the amendment.
    Mr. Gonzalez. Thank you very much.
    The Chairman. The amendment then is accepted. The chairman 
now would like to recognize Mr. Capuano for offering an 
amendment to the Lofgren substitute.
    First, we still need a vote on the Gonzalez amendment.
    All those in favor, signify by saying ``aye.''
    Aye.
    Opposed, ``no.''
    In the opinion of the Chair, the ``ayes'' have it.
    So ordered, the amendment is agreed to. Mr. Capuano.
    Mr. Capuano. Mr. Chairman, I have an amendment at the desk.
    The Chairman. Mr. Capuano offered an amendment. Without 
objection the amendment is considered as read. The gentleman 
from Massachusetts is recognized for five minutes.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.131
    
    [GRAPHIC] [TIFF OMITTED] 36562.132
    
    [GRAPHIC] [TIFF OMITTED] 36562.133
    
    [GRAPHIC] [TIFF OMITTED] 36562.134
    
    Mr. Capuano. Mr. Chairman, this amendment simply allows 
voters to have a choice as opposed to having election officials 
have full control over the method of voting that a voter might 
wish to do.
    It allows people who walk into the polling place to take 
whatever is offered, or to ask for a ballot that is capable of 
being handmarked. To me, this is an amendment that is already 
full of compromises for me. It does take into account some of 
the earlier voting provisions. It exempts them. It doesn't take 
effect until 2010. It does not deal with voting centers because 
personally, I wasn't familiar with voting centers, but I have 
no problem at all working to make sure that voting centers in 
the future be excluded from this.
    For all intents and purposes, it renders the emergency 
provisions, the emergency provisions moot. And it does that by 
allowing every voter to make a decision and therefore requiring 
every polling place to have enough ballots to handle that. 
Provisions are not yet stricken by this. I have no problem with 
having discussions to not trying to be redundant. I don't think 
redundancy helps at all. And this amendment I think is very 
simple, very straightforward, and I would urge people to 
support it.
    I yield back.
    The Chairman. Any discussion? Ranking Member, Mr. Ehlers.
    Mr. Ehlers. Mr. Chairman, I have reviewed the amendment 
again. I think it is an attempt to provide a clarification, and 
personally I have no objection, if you wish, to call for yeas 
and nays.
    The Chairman. Mrs. Davis of California.
    Mrs. Davis of California. Thank you, Mr. Chairman. 
Initially, I was very supportive of this because I think that 
at some of the hearings that we heard from people, it became 
clear that there is a choice for voters. And we wanted to be 
able to provide that, whether you know we used the word paper 
or plastic, but essentially, to be able to allow people who are 
concerned, have problems, whatever that may be to vote with 
paper. I was then concerned that we might disallow people who 
are voting early to do this because election centers would not 
be prepared to handle that, but I think that has been clarified 
in the amendment.
    I think that it really does allow some choice. And I think 
over time, some of us will settle out because people will 
either choose to use the paper or they will have the confidence 
in whatever machines it is that they are using and they will be 
able to do what we are really doing here--focusing on the voter 
and encouraging an election system that has the confidence of 
people that are getting to the polls, so I appreciate that, Mr. 
Chairman, and I support it.
    The Chairman. I thank the lady. Any other discussion? All 
those in favor of the Capuano amendment signify by saying 
``aye.''
    Aye.
    Any opposed? So ordered, the amendment is agreed to.
    We will move on to any other amendments?
    Mr. Ehlers. Yes. Mr. Chairman, I have a whole series of 
amendments here. The first one is labeled Ehlers Number 1, 
requiring paper as the official ballot. What this amendment 
does is allow States to decide what the official ballot of 
record should be.
    I think one of the flaws in the original bill, H.R. 811, as 
we have heard testimony from various governmental units, is 
that it insists that the only ballot of record is the paper 
ballot. I think there have been substantial cases showing that 
paper, in and of itself, is not necessarily more reliable than 
other methods of voting. I think it should be up to the 
election officials to have the capability and the freedom to 
decide, based on the record of what they see and the results of 
the voting, to decide which of the ballot--which of the 
redundant system they are using is the more reliable in terms 
of recounting the election.
    So this certainly clarifies that issue, removes the 
absolute nature of the statement. As I said before, the 2000 
presidential recount in Florida proved that paper ballots were 
not the answer and that was the genesis of HAVA. The main 
reason the Nation moved from paper ballots to mechanical voting 
machines was because of rampant fraud associated with paper 
ballots and the problems with discerning voter intent. Paper 
ballots can be--and frequently were--lost, stolen, or damaged. 
Entire ballot boxes were lost, stolen or stuffed with 
counterfeit ballots. That was the origin of the development of 
the old lever-style voting machines to get away from the 
problems of paper. I think we should let the election officials 
decide which is the appropriate record to use when recounting 
in a particular election based on the state of the ballots, the 
state of the equipment and so forth. I urge the adoption of 
this amendment.
    The Chairman. I thank the gentleman. Without objection, the 
amendment is considered as read. Any other discussion on the 
amendment? Yes. The gentleman from Alabama.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.135
    
    [GRAPHIC] [TIFF OMITTED] 36562.136
    
    [GRAPHIC] [TIFF OMITTED] 36562.137
    
    Mr. Davis of Alabama. Thank you Mr. Chairman. Mr. Ehlers, I 
would pose this question to you and then yield you your time to 
answer it. I assume when you crafted your amendment, you may 
have possibly expected that the Capuano amendment would not be 
successful. It has now been successful. It just passed by voice 
vote.
    Can you reconcile your amendment with the Capuano 
amendment? It seems like from my standpoint, if the Capuano 
amendment gives the voter a choice that that is substantially 
undercut if the States could then come back and say we are 
going to ignore all paper ballots in adjudicating a recount, 
but I yield to you to answer that.
    Mr. Ehlers. I will be happy to yield. I don't see a 
conflict here at all because it gives the local election 
officials the choice of which to use for the record. If for 
example they have allowed some people to use VVPAT, paper 
ballots, and there is no alternative, obviously they have to 
depend on those paper ballots for those individuals as the vote 
for the record. But the intent of the bill is to make certain 
there are two indicators of the intent of the elector so that 
we can determine precisely what the elector meant.
    Mr. Davis of Alabama. Well, reclaiming my time. I am 
searching for the actual text of your amendment. If you have an 
extra copy of it, I would appreciate being given it versus just 
the executive summary of it. But if I am understanding the 
summary, it suggests that it would be up to a State to decide. 
But in the event of a recount, the State could choose something 
other than paper ballots. If I understand Mr. Capuano's 
amendment, the goal is to give a voter the option of making 
sure there is a paper trail. The only relevance of giving a 
voter that option would be that there was, in the event of a 
recount or in the event of a dispute, the availability of 
something more reliable than machines.
    So it may be that we simply disagree about your amendment, 
but it would seem to me given Mr. Capuano's amendment now being 
included in the bill that you would take away or you would 
undercut the voter flexibility Mr. Capuano creates by allowing 
the States to in fact ignore those paper ballots.
    Mr. Ehlers. No. They would not have that option. The intent 
here is that when there are two official records, whether it is 
a computer and a paper trail or whether it is some other 
alternative dual redundant record, which could be a computer 
with an additional server located alongside which verifies the 
votes, if there are two choices, let the State choose. If there 
is only one choice, if it is just the paper ballots that Mr. 
Capuano refers, that of course has to be the only option that 
the State or the local government can pick.
    Mr. Davis of Alabama. In the interest of time, I will make 
this just my last observation. It would seem as a practical 
matter that if consistent with Mr. Capuano's amendment that 
there would always be in every jurisdiction a chunk of ballots 
that were paper ballots that would exist, perhaps in some there 
would be the overwhelming majority of the ballots that were 
cast. So as a practical matter, If I understand the point the 
ranking member is making, if there were an election recount or 
an election audit, it may create a very significant practical 
problem if the State were to decide to use one mode of 
verification if a significant number of ballots were cast.
    Mr. Ehlers. The State could never exclude ballots that were 
officially cast if that is the only ballot that was made. They 
could never do that.
    Mr. Davis of Alabama. Okay. I will yield back, Mr. 
Chairman.
    The Chairman. Thank you. Yes, the lady from California.
    Ms. Lofgren. I just wanted to--I am sorry that I had to 
briefly depart for a previously scheduled meeting. I did want 
to address the issue that I understand Mr. Ehlers raised in my 
absence, which is what machines are readily available now that 
meet the standards in the substitute. And that would be 
official optical scans and ballot marking devices, and I also 
understand that the question has been raised whether levers, 
the machines with the levers would be essentially outlawed 
under the substitute. And the answer to that is yes, they would 
be outlawed. However, only New York uses the levers, and the 
State of New York has itself outlawed the levers as of 
September of this year. H.R. 811--actually the substitute would 
actually not outlaw the levers until November of 2008. So I 
don't think New York would actually even be impacted since they 
have taken a step in advance of this. I think that the 
substitute does really nothing to advance our cause of 
transparency and voter recounts.
    And you know years ago, I was visiting in Silicon Valley, 
and all the techies are very concerned, at least in the valley, 
who have talked to me, that we take a step such as is 
envisioned in the bill and in the substitute. And I remember 
one of the scientists told me--I said, well, mistakes can be 
made under any system, and that is true. I mean there can be 
mistakes on paper ballots. There can be mistakes on optical 
scans. There can be mistakes on machines. I mean, nothing is 
perfect, and we all know that. And he argued back to me, yes, 
but the mistakes can't all be skewed to one side as they could 
be in a voting machine. And that is really what underlies this 
issue. You can't hack a paper ballot. And you can hack a voting 
machine, and you need to have a paper ballot at least to 
prevent that from happening, and I think to do anything less is 
a mistake, and I don't question the gentleman's commitment or 
his good will. I just think that he is mistaken, and I thank 
the Chairman.
    Mr. Ehlers. Would the gentlewoman yield?
    The Chairman. We are going to get back to you. We have 
agreed to hold open any debate on your substitute until you got 
back. But right now we are on Mr. Ehlers' amendment No. 1. If 
we could do this, get through the amendments, and as I agreed 
to, we could go back and have our discussion with the 
substitute. I believe Mr. Ehlers' amendment No. 1 is up for----
    Mr. Gonzalez. Addressing Mr. Ehlers'--I guess--amendment 
No. 1. Mr. Ehlers, could you give me an example of what you are 
talking about here where there would be an election by the 
election official and determine what would be the official 
ballot? What constitutes the official ballot for the purpose of 
an audit or a recount, a real life experience that we could 
anticipate occurring?
    Mr. Ehlers. Will the gentleman yield?
    Mr. Gonzalez. I am sorry. I yield to you. Yes, sir.
    Mr. Ehlers. I thank you for yielding. This is not an 
amendment that is just coming out of the blue. This is in 
response to the requirement in H.R. 811 that in the case of two 
extremes the paper ballot is the ballot of record, period. The 
local community has no choice, the State has no choice and this 
amendment is simply to make it clear in the case of a dual 
record. The State and the locality upon examination of the two 
records can decide which is the most accurate and use that as 
the official recount. It is not a new concept. It is simply 
taking away the requirement that it has to be paper, that you 
can't consider the voting machine as----
    Mr. Gonzalez. Reclaiming my time, I guess what I am trying 
to get at is, if you could give me an example of where you have 
two competing ballots that either could be recognized as the 
official ballot. Are we talking something that is 
electronically computed? Or something that we have that is 
actually a--obviously the paper ballot? The reason that I pose 
that question is, if you are going to give an option to the 
election officials to basically defeat the very purpose of what 
we are doing, and that is a paper trail, but not just a paper 
trail but something that can be examined, quantified as being 
more reliable than that which cannot be, which would be 
something that would be a nonpaper ballot. See what I am 
getting at? I am just saying, I would like to know of an 
example that you could provide me because maybe I am missing 
the whole point of your amendment.
    Mr. McCarthy. If the gentleman would yield.
    Mr. Gonzalez. And I would like to yield to Mr. Ehlers since 
it is his amendment.
    Mr. Ehlers. Okay. Let me first respond, and then I hope you 
will also recognize Mr. McCarthy. You are assuming, as the bill 
does, that the paper trail is automatically the better record. 
Now we heard testimony before this committee from Cuyahoga 
County, Ohio that this is not true, that they did run an 
election where there was a paper ballot as well as the machine. 
The machine turned out to be far more accurate than the paper 
ballot. Now I am not saying this would be true in every case. I 
am just saying in a case where that is true and it is evident, 
isn't it foolish of us to say, I don't care if the machine is 
proven to be more accurate, why do you exclude--why do you 
require us to use a paper ballot?
    So I am just giving the local election officials a choice. 
This is based on my strong feeling. Having served in local 
government, State government and Federal Government, I have 
discovered that not all wisdom resides in the Congress, and I 
think we ought to recognize the ability of the local election--
--
    Mr. Gonzalez. Reclaiming my time, I know that it is 
probably almost expired. But I think just an important point--
obviously I was just informed in that particular aspect or that 
particular county, the paper roll jammed and you had certain 
problems. I think we start from the basic premise. And I know 
that we have a fundamental difference about it that we are 
insistent on the paper ballot. I think what you are doing is 
you are allowing an election official to frustrate the very 
purpose of what we are attempting to accomplish and, further, 
find ways and manners of making sure that the paper ballot does 
in fact establish something that is very clear and 
quantifiable. That is my fear and my concern or that you 
actually put what we are trying to do here in jeopardy by--and 
I understand what you are saying, it is just the good faith of 
the election officials or so. But I can actually see where 
there would be a heck of a lot more mischief with that than if 
we say let's emphasize a quality paper ballot, a paper trail, 
because that is what brings us here today and this particular 
piece of legislation, and at this time I would yield back 
because I know----
    Ms. Lofgren. Would the gentleman yield?
    Mr. Gonzalez. I would yield to Ms. Lofgren.
    Ms. Lofgren. I would note to cite Cuyahoga County is pretty 
amazing since it is my understanding the election officials 
there were removed by the State because of irregularities and 
misconduct in the conduct of elections, and that has been 
widely reported in the press and I would yield back.
    Mr. Gonzalez. I yield back to the chairman. Thank you, Mr. 
Chairman.
    The Chairman. Mr. McCarthy.
    Mr. McCarthy. If I could ask my questions, I guess. 
Referring to my friend from the other side asking for a 
specific example, during the hearings we did have an elected 
official from Ohio. It was a race this time, and it was close. 
I believe it was Deborah Pryce's race. It was a large county. 
It met all the criteria, all the matrix that you would want to 
see. And it went through with the State provision to have the 
recount. The interesting part that they brought up, they had 
electronic machine and they had the paper right there. When 
they went back and did the checking because that is what they 
have to do, the machine counted correctly. The paper--because 
you are using individuals there who have been trained but who 
aren't there all the time--jammed. So in this bill what Mr. 
Ehlers is saying and why he is offering the substitute, we are 
predetermining which one we look at. Even though in that case 
if this bill was to pass, the paper would be the correct answer 
even though we all knew it was wrong.
    So all Mr. Ehlers is saying with the substitute, don't 
predetermine the winner in the process. Allow the elected 
official who is elected by the body or appointed to actually 
weigh that issue so they have the option. And I understand your 
argument from there, but in this case we would have legislated 
what was right and what was wrong even though in that case he 
pointed out it was wrong, and I can see human error, just like 
Ms. Lofgren talked about earlier. The more people touch it, the 
greater a chance that there is an error. When you are feeding 
these in, you can't have error. And double checking, doing the 
parallel test, they found the machine had counted correctly. 
The paper had counted wrong so they were having the 
verification on both----
    Mr. Gonzalez. Would the gentleman yield? Thank you very 
much. My understanding is you had a reel and it jammed and you 
had those problems. I believe and I could be wrong, and I will 
defer to Ms. Lofgren and to Mr. Ehlers who are very 
knowledgeable about every aspect of this particular piece of 
legislation, my understanding is that we are going to have 
paper ballots available for those that are going to be 
requesting them. So I don't see that situation that we now 
allude to as ever repeating itself. Because if they had a 
problem with the printout, with the roll, the reel or whatever, 
we are actually going to have available for use in those 
circumstances a printed ballot. It is my understanding that we 
are going to have something that would address that particular 
situation. So that if anything, we have now built into this 
whole voting process a more careful and deliberate way of 
arriving at a paper ballot that we can rely on so that we do 
avoid the problem that you just set out. I just think that 
really defeats the whole purpose of what we are trying to 
accomplish here with paper trail, paper ballot and reliability.
    Mr. McCarthy. If I may yield back my time. The only thing I 
would state here is this is probably the problem where we are 
putting the cart before the horse. If we would debate the bill, 
maybe this would be a little clearer understanding, because in 
that instance you wouldn't have known the paper had jammed. 
Even though you do have paper and you have the paper ballot but 
the person was able then to go to the choice, what happens is 
only when the election was close did they go back, trigger an 
automatic evaluation. The election was close. That is when they 
realized that the paper count was not correct, but this 
legislation, if the answer is the way I read it, it says the 
paper is always right. The machine can never be right. And I 
would rather--instead of predetermining who the winner is, I 
would rather give that power to the elected officials who do 
this every day. And they could see from that instance, and that 
is in essence what the substitute, and let me yield my time 
to----
    Mr. Ehlers. If the gentleman would yield here, let me just 
follow that up. First of all, machines don't always function 
perfectly. That is true of computers, and it is true of paper. 
I am not arguing that we make the computer the automatic one. I 
am saying just allow the election officials based on the 
records to decide which one is right. I think it is absurd to 
say well, the paper always has to be right. We already have 
examples where it is wrong. It is also so argued that the 
computer has to be right. But I don't understand the underlying 
assumption here that somehow the computer is always wrong.
    Look, we sent out millions of Social Security checks every 
year. Our paychecks are run off by a computer. Right? I never 
even see it. It automatically goes into my bank account. Now I 
have a check because I can check it because--I wish I had more 
checks--but I could check my bank account and see that it was 
actually deposited correctly. The point is simply we trust 
computers for so many aspects of our lives. I think it is 
insane to have something that says the computer is 
automatically wrong.
    Mr. Davis of Alabama. Would the gentleman yield for one 
point?
    Mr. Ehlers. It is not my time.
    Mr. Davis of Alabama. Would you yield for one quick 
observation?
    Mr. McCarthy. Yes.
    Mr. Davis of Alabama. Ultimately Mr. Gonzalez and I are 
making the same point. So I won't spend a lot more time on 
this, but I think, Mr. McCarthy, what you said perhaps 
unintentionally clarifies this debate. This side of the aisle, 
the supporters of this bill want to create a paper trail in 
every instance because this side of the aisle has made the 
judgment that that is, all things being equal, the best, most 
provable, most empirical way of verifying whether a vote has 
been cast. The purpose of this amendment is to depart from that 
intent and to say to local election officials, you can choose a 
different mode, and that just seems crystal clear to me. That 
is your position and we have ours. But I don't think it is 
accurate to say that this is consistent with the intent to move 
toward a paper verification. It is not. It would allow the 
opposite of paper verification.
    Mr. McCarthy. If I may yield back just for clarification.
    The Chairman. I am not sure if there is time left.
    Mr. McCarthy. Just to be short, maybe we are not clear 
because that is not our intention. All we are saying is you 
could have a paper trail and you can have a computer trail. In 
essence what you are saying, paper trail always, even in the 
instance when it jams, and this person got a hundred votes and 
the paper trail says----
    Ms. Lofgren. Would the gentleman yield?
    The Chairman. The gentleman has no more time.
    Ms. Lofgren. Mr. Chairman.
    The Chairman. We have nine amendments. We could do this 
back and forth forever.
    Mr. Lungren. Mr. Chairman.
    The Chairman. Yes, the gentleman from California.
    Mr. Lungren. Mr. Chairman, I would just like to strike the 
last word. I come to this somewhat fresh.
    The Chairman. You have 5 minutes.
    Mr. Lungren. And I have been one that had been concerned 
when I come up to certain machines and, you know, I push my 
finger on it and I hope it registers it correctly. And 
initially I thought paper verification, man, that is the way to 
go. And maybe this is the essence of the difference here. Isn't 
what we really want is to have a redundancy, a redundant system 
that is independently verifiable so that you can compare one 
against the other to see if in fact there was the accuracy of 
the machine involved, not just go back and check the machine 
and its internal operations? That is what I understand what we 
are trying to do here. And we are, it seems to me, making the 
judgment that the only way to do that is by a paper trail, and 
I don't know if that is because we doubt technology or we think 
that the constituents need--the voters need to have something 
in their hands to prove to them that in fact that is the best 
way to verify.
    Now, I am one of those who loves to have a check in my 
hand, loves to have a piece of paper in my hand. But at the 
same time, I recognize the world is changing and that we are 
going to paperless programs. And I just wonder whether it 
really does make sense. And this is not partisan on my part. I 
am trying to assure you. I want a redundancy. But does it make 
sense for us to predetermine the redundancy has to be paper?
    And I guess my question is a general one but then also a 
specific one. I understand--and maybe the gentlelady from 
California can correct me--but I understand in your substitute 
that you give a waiver to reel-to-reel paper, reel-to-reel 
machines for 2008?
    Ms. Lofgren. That is correct.
    Mr. Lungren. And that is because----
    Ms. Lofgren. That is because some of the States, some of 
the localities have complained that their State legislatures 
might not be able to act in time, and we want to accommodate 
that, but since the gentleman has yielded----
    Mr. Lungren. And I yield to the gentlelady.
    Ms. Lofgren. I think it is important to be clear about what 
the underlying bill says and what it doesn't say. It says----
    Mr. Lungren. It would be very helpful.
    Ms. Lofgren [continuing]. In section 2(b)(1) that if there 
is an inconsistency between any electronic vote tallies and the 
vote tallies determined by counting by hand that the paper 
ballots shall prevail, as has been discussed. It goes on to say 
if it is demonstrated by clear and convincing evidence, as 
determined in accordance with the applicable standards in the 
jurisdiction involved in any recount, audit or contest of the 
result of the election, that paper ballots have been 
compromised by damage or mischief or otherwise and that a 
sufficient number of ballots have been so compromised that the 
result of the election should be changed, the determination of 
the appropriate remedy with respect to the election shall be 
made in accordance with the applicable State law. And so there 
is room for using commonsense in the case where the reel-to-
reel, for example, jams, as we saw in one of our hearings. I 
would note also that in Ohio there was no parallel testing--I 
just wanted to correct the record on that--in the election 
contest previously referenced. The difference here I think is--
and I don't want to talk about Florida 13 specifically because 
that is a separate committee that we belong to. But we do know 
that looking at that issue, there is nothing to recount. There 
is no paper ballots to recount. And that is the greatest 
argument I can find----
    Mr. Lungren. Reclaiming my time, the gentlelady has just 
directed us to in the substitute actually goes to what the 
amendment offered by Mr. Ehlers is, and so therefore the 
gentlelady accepts the argument but is suggesting that you have 
taken care of that in your base substitute. That is, at times 
if there is proof that the paper ballot method is somehow 
insufficient, they can go to something else, is that correct?
    Ms. Lofgren. Not exactly.
    Mr. Lungren. Oh.
    Ms. Lofgren. If it is demonstrated by clear and convincing 
evidence that the paper ballots have been compromised and that 
a sufficient number of the ballots have been so compromised 
that the results would have been changed, the determination of 
the remedy shall be made in accordance with applicable State 
law.
    The Chairman. The gentleman's time is up. Anyone else? 
Question on the Ehlers amendment? All those in favor, signify 
by saying ``aye.'' Any opposed? The noes have it. The amendment 
fails.
    Mr. Lungren. Mr. Chairman, I have an amendment.
    Mr. Ehlers. Could I have a recorded vote on that?
    The Chairman. The gentleman asks for a recorded vote. 
Recorded vote on the Ehlers amendment No. 1.
    The Clerk will call the roll.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    Mr. Gonzalez. No.
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Davis of Alabama.
    Mr. Davis of Alabama. No.
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. Yes.
    The Clerk. Mr. Lungren.
    Mr. Lungren. Aye.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Aye.
    The Clerk. Mr. Chairman.
    The Chairman. No.
    The noes are 6, the yeas are 3. The amendment fails.
    Mr. Lungren. Mr. Chairman, I have an amendment, Lungren No. 
1.
    The Chairman. Lungren No. 1. Without objection, the 
amendment is considered read. I will now recognize the 
gentleman for five minutes.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.138
    
    Mr. Lungren. I thank the Chairman. This amendment I think--
well, I hope is somewhat noncontroversial. It attempts to try 
and deal with a particular problem that occurred to me, and 
this amendment tries to deal with that problem. It would allow 
the States that currently use the direct recording electronic 
systems with the voter-verified paper audit trail that have 
thermal paper to continue to use these voting machines in 
Federal elections. It is my understanding that 27 States 
currently use DREs with reel-to-reel voter-verified paper audit 
trails. This bill would require that States junk these new 
voting machines after the 2008 election. I could find no 
compelling reason to require the States to replace these 
machines because DREs with voter-verified paper audit trails 
that use reel-to-reel thermal paper still provide the paper 
record that we are talking about. It seems to me this is the 
kind of thing that the election officials were complaining 
about. This would be a huge waste of taxpayer dollars to 
replace something that is working and that provides the paper 
auditable trail that is desired by the majority in this bill. 
State and local election administrators have advised members of 
the committee that an alternative to reel-to-reel voter-
verified paper audit trails cannot be developed, tested, 
certified and implemented for the 2008 elections and there is 
some question, according to them, whether it would be available 
for the 2010 elections.
    So this amendment would simply allow States to use these 
reel-to-reel voter-verified paper audit trails for the life of 
the machine. And as I understand it, that could be 10 to 15 
years or until the State decides to purchase new equipment. 
This does not change the underlying premise of the bill, as I 
understand, brought to us by the majority. It does have the 
paper trail there established. It would save money even though 
I know we are promising that we are going to send the money 
down there. I think we ought to be realistic, there is always 
cost involved. And if this serves the purpose of what we were 
talking about, I would hope that we could adopt this amendment.
    It does nothing to undercut the premise of the majority. It 
does nothing to undercut the idea of a paper trail. It allows 
the use of the machines that, as I understand it, have not 
proven to be problematic to this point. And that is the purpose 
of my amendment, and I think it is fairly simple and 
straightforward.
    And with that, I would yield back the balance of my time.
    The Chairman. I would like to thank the gentleman. The 
gentlelady from California, Ms. Lofgren.
    Ms. Lofgren. Mr. Chairman, I oppose the amendment. As 
referenced earlier by, I believe it was Mr. McCarthy, the reel-
to-reel are not optimal technology. I mean, they can jam. They 
are not perfect. And the provision in the substitute that 
permits their use through the 2008 election is a compromise, 
really in deference to the county and State officials who said 
that they could not meet the 2008 deadline. But I think to 
ignore the problems that we are aware of forever would be a 
mistake, and that is why the substitute gives a waiver but 
actually says these machines need to have a durable paper trail 
that is readable and countable in the future. And I think that 
to adopt the gentleman's amendment, although I am sure it is 
well intentioned, would be a mistake, would undermine the bill 
and the progress that we hope to make with it, which is why I 
oppose it, and I thank the gentleman for recognizing me.
    The Chairman. Thank the lady. Any other discussion? The 
question is on the amendment? All those in favor of the Lungren 
amendment No. 1 signify by saying ``aye.'' Any opposed?
    Mr. Lungren. Recorded vote, please, Mr. Chairman.
    The Chairman. Recorded vote is requested. Would the Clerk 
please call the roll?
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    Mr. Gonzalez. No.
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Davis of Alabama.
    [No response.]
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. Yes.
    The Clerk. Mr. Lungren.
    Mr. Lungren. Aye.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Aye.
    The Clerk. Mr. Chairman.
    The Chairman. No.
    The noes are 5, the yeas are 3. The amendment fails.
    Mr. McCarthy. Mr. Chairman, I have an amendment at the 
desk.
    The Chairman. The Chair recognizes Mr. McCarthy.
    Mr. McCarthy. This amendment----
    The Chairman. I am sorry. Without objection, the amendment 
is considered as read, and you are recognized for five minutes. 
Which number is this?
    Mr. McCarthy. No. 1.
    The Chairman. No. 1. Thank you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.139
    
    [GRAPHIC] [TIFF OMITTED] 36562.140
    
    Mr. McCarthy. It is my understanding that they have all 
been numbered by name, hopefully everybody has it.
    It is pretty straightforward. It allows States to continue 
to use the DRE for early voting and advanced voting. As many of 
us know, a lot of the States have moved up their voting such as 
Nevada and others to help when it comes to lines, to help in 
the process. And this allows them to use the DREs because they 
are necessary in urban areas to serve voters from anywhere 
within the county who wish to vote early at the voting 
locations. In some of these areas you can have 1,100 different 
ballot styles. And from this perspective, I believe it will 
help the individuals, it will shorten the lines, and one thing 
we found, a significant ballot printing and delivery problems 
for the optical scanners occurred in 2008, 2004, 2006. And as 
everybody moves their election up faster, with the presidential 
coming and the primary, I just think this gives an opportunity 
to mend into your bill to actually give some flexibility at the 
same time.
    I yield back my time.
    The Chairman. I thank the gentleman. Any discussion? The 
question is on the amendment? All those in favor signify by 
saying ``aye''. Any opposed? The noes have it.
    Mr. McCarthy. I would ask for a roll call vote.
    The Chairman. Roll call is requested. Would the Clerk 
please call the roll?
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Davis of Alabama.
    Mr. Davis of Alabama. No.
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. Aye.
    The Clerk. Mr. Lungren.
    Mr. Lungren. Aye.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Aye.
    The Clerk. Mr. Chairman.
    The Chairman. No.
    The noes are 5, the yeas are 3. The amendment fails.
    Mr. Ehlers. Mr. Chairman, I have an amendment at the desk.
    The Chairman. Without objection, the amendment is 
considered as read and the Ranking Member is recognized for 
five minutes.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.141
    
    [GRAPHIC] [TIFF OMITTED] 36562.142
    
    [GRAPHIC] [TIFF OMITTED] 36562.143
    
    Mr. Ehlers. Thank you, Mr. Chairman. This amendment is very 
straightforward. It strikes the audit provisions, which have 
been the most disturbing and difficult for the States and local 
governments to deal with. It strikes all of the other 
provisions, but it does not get rid of auditing. It allows the 
States to develop their own plan for auditing Federal 
elections. States will develop plans and get approval by their 
respective State auditors or equivalents and then submit their 
plan to the EAC. Election administrators are the ones who have 
to administer the changes and many of them have testified and 
sent letters testifying to the burdens and unintended 
consequences of the audit requirements in H.R. 811. I have 
alluded to that earlier in terms of the election officials who 
have talked to me. So the proposed audits will greatly 
interfere with the actions of the canvassers in deciding the 
final totals for local and State elections. With the testimony 
that we have received on this, this is not a good way to audit. 
They have better ways of doing it. We are happy to work with 
their State auditors to improve it if it needs improvement and 
submit their plan to the EAC.
    I ask for approval of my audit provision change.
    The Chairman. I thank the gentleman. The gentlelady from 
California, Ms. Lofgren.
    Ms. Lofgren. Mr. Chairman, I oppose the amendment, as the 
substitute actually deals with some of the issues raised by 
State officials relative to the audit. In the substitute the 
audit board has been removed but has been replaced with a 
requirement that the entity chosen by the State to conduct the 
audit satisfy the requirements of independence as set forth in 
the GAO's government accounting standards and also provides for 
an alternative, that States could instead use auditing 
procedures established by NIST, and I know the gentleman has 
great respect for, as do I. So I believe, however, that 
independent random audits are very important, and certainly in 
talking to local government officials in California they concur 
that a randomized audit is absolutely essential.
    As the gentleman knows, I was a local government official 
for more years than I have been in Congress. I was on a board 
of supervisors in Santa Clara County for 14 years with 
responsibility for elections. We supervised and funded the 
registrar of voters in that fourth largest county in the State. 
And I would never, as a local official, have said that a 
randomized audit that was independent was somehow to be 
resisted.
    So I think the amendment undercuts the bill, an important 
element of the bill. We have in the substitute change 
provisions of it to accommodate what we think are legitimate 
issues raised by State officials so that we do not unduly 
constrain the development of audits, but we need to have 
independence and I think the gentleman's amendment would 
undercut that.
    And I thank the chairman for yielding to me.
    The Chairman. Any other discussion on the Ehlers amendment 
No. 2? The question is on the amendment? All those in favor of 
the amendment signify by saying ``aye.'' Any opposed signify by 
saying ``no.'' The amendment fails. We ask for a recorded vote 
with a roll. Would the Clerk please call the roll?
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Davis of Alabama.
    Mr. Davis of Alabama. No.
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. Aye.
    The Clerk. Mr. Lungren.
    Mr. Lungren. Aye.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Aye.
    The Clerk. Mr. Chairman.
    The Chairman. No.
    The noes are 5, the yeas are 3. The amendment fails.
    Mr. Lungren. Mr. Chairman, I have Lungren No. 2, amendment 
No. 2 at the desk.
    The Chairman. The Chair recognizes the gentleman for five 
minutes. Without objection, the amendment is considered as 
read, Lungren No. 2.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.144
    
    [GRAPHIC] [TIFF OMITTED] 36562.145
    
    Mr. Lungren. Thank you very much, Mr. Chairman. This 
amendment deals with the question of disabled accessibility. As 
I mentioned earlier, when we had general debate the American 
Association of People With Disabilities, the Nation's largest 
cross-disability membership organization, has expressed their 
concerns about the impracticality of the implementation of this 
bill. While they take pains to laud the impact of HAVA, HAVA's 
requirement that all polling places have at least one 
accessible voting machine by 2006 because it has, in their 
words, resulted in significant improvements in voting access 
since the 2002 elections, they go on to say that they fear that 
the Nation might move backwards on accessible voting 
technology, not because that is the intent of the author of 
this bill or the substitute but rather because of the 
impracticality in implementing this bill in this way.
    That is why I offer this amendment. This amendment would 
simply allow States to continue to use the DREs that meet the 
accessibility requirements under current HAVA law. This 
guarantees that the progress achieved under that law for the 
disabled community, as referenced in the letter from the 
President and CEO of AAPD would continue. Testimony before the 
committee indicates there still exists access problems with 
paper ballot and paper trails. Dr. Diane golden, disability 
access and technology witness, stated the following, quote, 
there are two access problems that we have still got in 
existing products related to print. It is not going to work to 
have an accessible electronic vote record or ballot and an 
inaccessible paper one. You can just see the problem with that. 
It is clearly lack of equal access. And quote, when you add 
paper into the process, we certainly don't have equipment on 
the market readily available that delivers all of those access 
features when a paper ballot is involved.
    Congressman Holt stated that, one, our legislation requires 
that there be a voter-verified paper ballot. Now what goes 
along with that we really don't specify. There is some 
accessibility issues that, you know, purely a paper system 
cannot help the voter with disabilities along with the process. 
And that is an admission by Congressman Holt that we have a 
problem here.
    So it just seems to me that if we are going to require 
voter-verified paper audit trails, we should first ensure that 
it has accessibility standards for all disabled voters before 
requiring the States to purchase technology that does not now 
exist. I believe a paper option can still be offered for those 
who are disabled and want a paper backup and prefer to have 
assistance in the voting booth.
    I understand the intent of the author of the underlying 
bill and the gentlelady from California with the substitute to 
try and somehow come to a reasonable compromise on this. I just 
fear that under the current terms of the bill that doesn't make 
it. I would just ask that there be serious consideration of my 
amendment so that we don't have an unintended consequence as a 
result of the terms of the bill that we pass.
    And with that, I would yield back the balance of my time.
    The Chairman. I thank the gentleman. Is there any other 
discussion on the amendment? The lady from California, Ms. 
Lofgren.
    Ms. Lofgren. I oppose the amendment. And as mentioned 
earlier, there is a grandfather clause through the next 
election for those systems that have reel-to-reel. On page 7 of 
the substitute, starting at line six, there is also a provision 
requiring that the use of at least one voting system equipped 
for individuals with disabilities at each polling place that 
allows a voter to privately and to independently verify the 
individual durable paper ballot and ensures that the entire 
process is equipped for individuals with disabilities.
    I will note that we worked very closely with the disability 
community in crafting the substitute, and I believe that it 
does address their very important issues, and the amendment is 
unnecessary and also redundant, and therefore I would oppose 
it.
    The Chairman. Any other discussion? The question is on the 
amendment? All those in favor signify by saying ``aye.'' Those 
against, ``no.'' The noes have it.
    Mr. Lungren. Recorded vote, please.
    The Chairman. A recorded vote is requested. Would the Clerk 
please call the roll?
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Davis of Alabama.
    Mr. Davis of Alabama. No.
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. Aye.
    The Clerk. Mr. Lungren.
    Mr. Lungren. Aye.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Aye.
    The Clerk. Mr. Chairman.
    The Chairman. No.
    The noes are 5, the yeas are 3. The amendment fails.
    Mr. Lungren. Mr. Chairman, I have Lungren amendment 3 at 
the desk.
    The Chairman. The Chair recognizes Mr. Lungren with 
amendment No. 3 at the desk. Without objection, the amendment 
is considered as read and I recognize the gentleman for five 
minutes.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.146
    
    Mr. Lungren. Thank you, Mr. Chairman. This amendment goes 
to a very controversial part of this bill. It goes to the 
question of source code and the availability of the source code 
to a large number of potential parties. This amendment would 
strike the provisions in the bill relating to election 
dedicated software and source code disclosures.
    As I read the bill, and I believe this is still true in the 
underlying substitute, it allows access of voting machine 
software to parties of a rather large universe. As I understand 
it, all someone would have to do is file a lawsuit, they would 
then be considered a party and they would have access to this 
information under the terms of this law. As I understand it, it 
would be both pre-election and post-election. As I understand 
it, there would be a requirement for disclosure--nondisclosure 
agreement to someone who successfully sought this information. 
However, I have looked in vain to find any provision in the 
bill before us that has an enforcement mechanism.
    Now, I don't know, but I would think that we would want to 
protect intellectual property to a greater extent than that. A 
nondisclosure requirement that has no backup in terms of a 
penalty to someone who did disclose, either administratively or 
any other way, is not the way we normally look at important 
issues of intellectual property. As a matter of fact, we know 
we have international disputes with any number of our trading 
partners, and if we were to visit Taiwan or visit the People's 
Republic and they were to tell us, look, we are going to 
protect your intellectual property by requiring nondisclosure 
agreements under certain circumstances but there is no 
enforcement mechanism, I think we would be very, very upset.
    These are crucial issues out there. I understand the 
importance of being able to check to make sure that machines 
have not been in any way tampered with, but I think this goes 
far too far. There are inherent security concerns and 
reservations about allowing a broad spectrum of parties, some 
of whom may not have real interests in the source code, to view 
sensitive and security-related voting machine equipment and 
software. And maybe I am mistaken on this, but I understand 
this is allowed pre-election as well as post-election under the 
terms of the bill. If we are concerned about securing 
something, maybe the last thing you want is individuals having 
access to these things prior to an election where they might be 
able to do testing to find out what the vulnerabilities are. I 
know that is not the intent of the gentlelady from California, 
but I have a concern that that could be the result, and 
particularly when we have no enforcement mechanisms in the 
underlying proposition before us.
    So my amendment would strike the provision in the bill 
relating to the election dedicated software and source code 
disclosures, and I would hope to get support for my amendment.
    The Chairman. Is there any discussion on the amendment?
    Ms. Lofgren. Mr. Chairman.
    The Chairman. The lady from California, Ms. Lofgren.
    Ms. Lofgren. I oppose the amendment, and let me tell you 
why. I think there is no section of the substitute that I spent 
more personal hours on than this section, and to strike it 
would mean that no party or voter to--no party to litigation 
would ever be able to have access to voting system technology 
and might never be able to find out whether votes were 
miscounted. Now the language in the substitute is crafted to 
provide protection needed to get access to the information 
while at the same time respecting the rights of third-party 
vendors and off-the-shelf software. The provision relating to 
nondisclosure agreements is one that I think provides the 
opportunity for penalty for disclosure when it comes to 
election specific software.
    I would note that the section which begins on page 11 of 
the substitute and extends into page 16 of the substitute is 
one that was crafted with the input of technology companies, 
many of whom are in my congressional district in Silicon 
Valley, and that the language is not opposed by the Business 
Software Alliance. I am not going to pretend that any software 
company wants any disclosure. I understand they don't. But 
there is also a recognition that when there is election-
specific software there is going to be a need in certain cases 
to have access to that software so that one can be assured as 
to what happened, and that is why we put these protections in 
place. I think that the provision is a balanced one that 
achieves its end, and I think the amendment simply striking it 
would lead us in the dark and would be a huge mistake, and I 
yield back. I thank the chairman for recognizing me.
    The Chairman. I would like to recognize the gentleman from 
California, Mr. McCarthy.
    Mr. McCarthy. Thank you, Mr. Chairman. I have a couple of 
questions for Mr. Lungren and then I would like to yield him 
some time as well. In your amendment you say strike it because 
you raised the issue about no penalty, that anybody could just 
go in and file a lawsuit that day and then get--I mean I could 
file a personal lawsuit currently as the bill is written?
    Mr. Lungren. If the gentleman would yield.
    Mr. McCarthy. I will yield.
    Mr. Lungren. As I understand it, the definition of the bill 
is someone who has an interest--a party of interest would be 
anyone who filed a lawsuit involved in this issue, whether or 
not they succeeded in the lawsuit, whether or not the lawsuit 
was thrown out later on, as I read the bill.
    Mr. McCarthy. And yours would--because there is no penalty 
as well. If someone goes in and signs that paperwork, I filed 
the lawsuit, I signed the paperwork, I get the source code. Is 
there any penalty if I do----
    Mr. Lungren. Well, if the gentleman would yield. And the 
gentlelady from California can correct me if I am wrong. But I 
read through the bill and could not find, or referring to my 
bill, the staff did a good job of reading through the bill--I 
could not find a reference to the penalty attached even 
administratively, civilly, criminally, any otherwise.
    Ms. Lofgren. Would the gentleman yield?
    Mr. Lungren. Yes.
    Ms. Lofgren. On that point, if you would look, I direct 
your attention to line 24 on page 13 on the nondisclosure 
agreements. The NDAs, what we decided would be prudent would be 
not to try to write the NDAs for the software companies. Let 
the companies write their own NDAs. Ordinarily--I have signed 
plenty of them--there are penalty provisions for disclosure 
that would be included in the NDA itself. So it was really in 
deference to the variety of companies. But there are limits 
that are put into the bill on what the NDA could contain, for 
example----
    Mr. McCarthy. If I may reclaim my time.
    Ms. Lofgren. Certainly.
    Mr. McCarthy. So if I recall correctly here, what you are 
saying is we are giving it up to the companies to put out any 
penalty they want, and how would it be reinforced then, through 
the legal course there?
    Mr. Lungren. If the gentleman would yield.
    Mr. McCarthy. Yes.
    Mr. Lungren. I understand what the gentlelady is saying, it 
is a nondisclosure agreement to be reached between the 
manufacturer or the possessor of the intellectual property and 
the person asking for it. But the fact that we don't specify 
any type of enforcement leaves that hanging out there. I would 
suggest that if one reads this bill, the impetus is to get this 
document or this information source code and other information 
out and for a company to stand there and say, look, we don't 
believe the nondisclosure agreement is sufficient to protect 
us, they will not be in a very strong position to do this. And 
I mean I would just say if the gentlelady is telling me that 
the high tech industry has signed off on this, this is news to 
me. And if that is the case, maybe on the Judiciary Committee 
we ought to understand they are not as concerned about source 
code protection as they have told us they are. And that is what 
I frankly find surprising, that somehow I am being told that 
they don't oppose it or they agree with it or they accept it.
    Ms. Lofgren. Would the gentleman yield?
    Mr. Lungren. Before that, I would just say if I were their 
lawyer and I saw this legislation and I saw that I was required 
by the Federal Government to give this information up pursuant 
to a nondisclosure agreement and there are no elements of 
protection for me that is specified there, that this is the 
penalty if you fail to do this, I would recommend to my client 
that they get out of the business.
    Ms. Lofgren. Would the gentleman----
    Mr. McCarthy. Reclaiming my time. If I could just ask you 
this question, it might be yielding the answer you want. You 
said the industry doesn't oppose it. Does the industry support 
it, this provision of the bill?
    Ms. Lofgren. If I may----
    Mr. McCarthy. Yes.
    Ms. Lofgren. On page 15, line 1, the NDA is ``silent as to 
damages,'' and on line 19, ``provides the agreement shall be 
governed by the trade secret laws of the applicable State.''
    I am on the Intellectual Property Subcommittee of the 
Judiciary Committee and have been on that subcommittee for the 
past 12 years. I think this is very much in keeping with our 
tradition of protecting intellectual property. I would note 
also that this relates only to election dedicated voting system 
technology, which is--we tried to define it and finally 
realized it is already defined. And so we simply reference the 
definition under current law.
    In terms of support, I will say that if you go to any 
industry and say, would you like to have a provision such as 
this? I mean they didn't ask for this. But in multiple meetings 
and really I don't know how many hours but many, many, we came 
to the point where the Business Software Alliance said that 
they do not oppose this.
    Mr. McCarthy. They do not oppose it but they do not support 
it?
    Ms. Lofgren. I don't want to say they support it yet. I do 
not know. But they do not oppose the language that we have in 
this amendment.
    Mr. McCarthy. Can I ask another question? You bringing up 
the subcommittee you serve on of the Judiciary, would this bill 
need to go through that committee as well?
    The Chairman. We are getting close to time. I will let you 
go a little bit longer, but not much.
    Ms. Lofgren. I hope not.
    Mr. McCarthy. Yield back my time.
    The Chairman. Yes, sir. Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. This is the part that 
bothers me the most. It just seems very strange to me. I don't 
know if the Business Software Alliance or Microsoft, et al., 
have taken leave of their senses. Considering the battles we 
have had just obtaining access to the source code thus far, but 
it has been obtained when it is appropriate. I am not even sure 
why we need this provision, but certainly I think it does 
incredible damage to the intellectual property laws of the 
country. I hate to think of how the Chinese might interpret 
this and say, well, this can apply to our case as well and it 
is okay if we violate the intellectual property laws. I think 
it is very strange, and I don't know if they were brow beaten 
into this or what. I think it is a very, very dangerous 
precedent for the high tech industry, especially the computing 
industry. Let me just ask if Mr. Lungren would like more time.
    Mr. Lungren. If the gentleman would yield. Look, I think we 
want some of the best in the business to be involved in this. I 
think we want not just one person who is sitting out there to 
look at this. This is specialized software. I would hope that 
we would have--we would at least not set up a scenario where 
companies are afraid to get in this because their intellectual 
property can be so easily compromised. I think you have to look 
at that side of this. It is one of the purposes of intellectual 
property. It is to allow the great competition of ideas, but 
people knowing they have some value in that property, that is 
one of the toughest concepts we have in developing countries is 
to have them understand the concept of intellectual property as 
a thing, as a right, as something that you protect, as a 
property interest. It is not immediately ascertainable. After 
developing countries understand how they actually promote 
themselves and their industry with the protection of these 
rights, they all of a sudden start protecting intellectual 
property that comes from other countries because they hope to 
have theirs protected. And that is why if we hope to have some 
of the best companies in the world giving us the best, most 
reliable machines, it seems to me we should be very careful 
about that. That is why I offered the amendment.
    Mr. Ehlers. Just reclaiming my time, I have a question for 
you, Mr. Lungren. You alluded earlier that this might stir the 
interest of the Judiciary Committee. Would you anticipate that 
this might trigger a referral of this bill to the Judiciary 
Committee?
    Mr. Lungren. If I were in the majority I guess I could give 
you an answer. I would--well, it is intellectual property. It 
goes about enforcement, but traditionally at least it is 
something that we would look at in the Judiciary Committee and 
past chairmen have jealously guarded that, and Mr. Conyers is 
not known to be a wallflower.
    Ms. Lofgren. Would the gentleman yield on that point?
    Mr. Ehlers. Yes, I will yield.
    Ms. Lofgren. I am advised the bill does not change any 
underlying intellectual property laws, and I am advised by 
someone who has checked with the Parliamentarian that it would 
not require a referral. And I thank the gentleman for yielding.
    Mr. Ehlers. Let me just conclude by saying that I still 
have serious concerns about this. I think it is of great 
importance to the computer industry and that we should at least 
be very worried with that provision. With that, I yield back.
    The Chairman. Thank you. Any other discussion? The question 
is on Lungren amendment No. 3. All those in favor signify by 
saying ``aye.'' Any opposed say ``no.'' The noes have it.
    Mr. Lungren. Mr. Chairman, could I have a recorded vote on 
that, please?
    The Chairman. Recorded vote is requested. Would the Clerk 
please call the roll?
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    Mr. Gonzalez. No.
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Davis of Alabama.
    Mr. Davis of Alabama. No.
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. Yes.
    The Clerk. Mr. Lungren.
    Mr. Lungren. Aye.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Aye.
    The Clerk. Mr. Chairman.
    The Chairman. No.
    The noes are 6, the ayes are 3. The amendment fails.
    Mr. McCarthy. Mr. Chairman, I have an amendment at the 
desk, McCarthy Number 2.
    The Chairman. McCarthy Number 2, without objection, the 
amendment is considered as read and the gentleman is recognized 
for five minutes.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.147
    
    [GRAPHIC] [TIFF OMITTED] 36562.148
    
    [GRAPHIC] [TIFF OMITTED] 36562.149
    
    [GRAPHIC] [TIFF OMITTED] 36562.150
    
    [GRAPHIC] [TIFF OMITTED] 36562.151
    
    [GRAPHIC] [TIFF OMITTED] 36562.152
    
    [GRAPHIC] [TIFF OMITTED] 36562.153
    
    [GRAPHIC] [TIFF OMITTED] 36562.154
    
    Mr. McCarthy. I thank you, Mr. Chairman. This amendment 
comes directly from our hearings. The one thing we talked about 
in the name of this bill is voter confidence. We are talking 
about auditing the election, having the ability to know that 
the election, the outcome, is what took place. And that means 
auditing it all the way through.
    And in our hearings, one of the individuals talked about 
from all of the different stages. And it dawned on me at that 
moment, at that time, that we are auditing those votes that 
have been voted, but we have never put the confidence back into 
the people who were allowed to vote, do we ever look at, do 
they have the right to vote?
    The outcome may--the votes may tabulate, be correct, of 
those who voted but we never looked at, for the confidence part 
of that. So what this amendment does, effective 2010, voters 
will be required to provide a photo ID much like every week 
when I get on the airplane, I show my ID. If I were to going to 
a store and purchase cigarettes or alcohol I show an ID. 
Effective 2010, voters who arrive at polling places without the 
required ID will be given a provisional ballot. And there will 
be 48 hours to present a qualifying ID. Effective 2010, people 
voting by mail must include a photocopy of a photo ID. The bill 
states to set up a program to distribute the IDs and provide 
them at no cost to the individuals. Funds are authorized to 
reimburse the states for the costs of providing free IDs. I 
believe IDs will preserve and bring integrity back to 
elections, and actually go to the heart of what this bill says, 
the confidence in the voters. If you are going to audit an 
election, but you are never going to audit whether the 
individuals could vote or not, how do you know you have the 
right outcome?
    And I will tell you there is broad support for this. It is 
really common sense. In a recent NBC Wall Street Journal poll, 
demonstrated that 81 percent of the people surveyed expressed 
supporting requiring IDs at the polls. The bipartisan Carter-
Baker Commission on Federal Election Reforms have recommended 
that we require IDs at the polls. I really believe this goes to 
the heart of it, that if we are to move this bill, the first 
thing we should do is the ID portion of it.
    And the bell rang, so I give back the balance of my time.
    Mr. Davis of Alabama. Mr. Chairman, can I weigh in on that 
or do you want to recess?
    The Chairman. Sure. The Chair recognizes Mr. Davis from 
Alabama.
    Mr. Davis of Alabama. I have a little bit of experience on 
this, Mr. McCarthy, being from Alabama and the south, a number 
of these southern States have these photo ID provisions. They 
sound seductive for the reasons that you outline, but there is 
a big practical problem with them. The folks in our society who 
do not have a photo ID tend to have the following 
characteristics, they tend to be very old, they tend to be very 
poor, and they tend to be blacks or Hispanics.
    And there are all kinds of reasons those four eventualities 
occur, but that is just the empirical fact. So if you impose 
any kind of voter ID, the result is that you strike at groups 
of vulnerable people who often participate at lower levels than 
they should in the political process.
    And there is another core problem, and by the way, that is 
what a number of courts have found. As you know, there have 
been a number of challenges to voter ID provisions on Voter 
Rights Act grounds and courts have tended to find that there 
are significant implications with respect to the Voters Act.
    There is another issue we are talking about legislation 
that aims at practical wrongs that exist. I am on the Judiciary 
Committee, which I served on with Ms. Lofgren and Mr. Lungren, 
we had an individual from the Department of Justice and I 
remember posing a query to that individual about the number of 
prosecutions that have happened in this country involving 
individuals who walk into a voting booth who claim to be 
someone that they are not. And the number is negligible. The 
number of elections that we have had in this country where 
there has been some taint or some evidence of corruption based 
on people walking in claiming to be John Jones when they are 
not John Jones is just a negligible number.
    On the other hand we have had, as we know from the Florida 
race, as we know from Ohio, as we know from the Florida 
presidential and congressional races in 2001 and 2006, as we 
know, are the Ohio race in 2004, there have been, whenever we 
think of the outcomes of those races, all kinds of questions 
raised around other aspects of the electoral process. So while 
this legislation sounds good, as a practical matter it aims at 
a problem that doesn't exist and it singles out a vulnerable 
class of voters. So I would yield to Ms. Lofgren.
    Ms. Lofgren. Thank you for yielding. And I would just add, 
this is something that I think the Election Subcommittee is 
going to take a look at later in the year because there has 
been so much discussion about it. But I will say this, people 
often say, well, you have to show ID to buy a beer, but you 
know a beer is not a constitutional right. We know that 
substantial numbers of American citizens do not actually have a 
photo ID. And in fact, we had hearings--and Mr. Ehlers was 
present at one of the hearings I attended, I believe, in New 
Mexico. We heard from the Navajo Nation--and it is about 
250,000 Americans. And indeed, they are the first Americans. 
And we were told by their leadership that they basically don't 
have photo IDs, and when we were having that hearing, the 
gentleman, who was a wonderful representative of his tribe 
said, you know, don't ask us for birth certificates because we 
don't have them. And don't ask us for utility bills because we 
don't have those either.
    So essentially, a photo ID imposition for voting would 
essentially say to a quarter million Navajos, our first 
Americans, you are not allowed to vote.
    I want to say also that the other studies we have heard 
about in the committee seem to indicate that there would be an 
enormously disproportionate adverse impact on people who are 
poor and people who are minorities. In fact, one of the studies 
that we learned about last Congress was in Wisconsin--I was 
stunned to see this--that a huge percentage, over somewhere in 
the neighborhood of half--of the African American young men 
between the ages of 19 and 26 don't have a driver's license and 
do not have a photo ID and cannot get one. I would note also 
that the Eagleton studies that was sponsored by the Election 
Assistance Commission, I would say rather cynically, suppressed 
and even distorted--and that is another thing we are going to 
look into later this year--indicated that there would be a 
disproportionate adverse impact on minorities with this voter 
ID impact, and it also pointed out there is virtually no 
evidence that there is fraudulent voting, and the Justice 
Department has shown that also through their lack of 
prosecutions.
    I think this is a very poor amendment. It would have a 
very, I am not sure not intended, but adverse civil rights 
impact and should be vigorously opposed. And I know the time of 
the gentleman has expired.
    The Chairman. I would like to recognize Mr. Capuano from 
Massachusetts hopefully for a very brief comment so we can vote 
on this amendment and then go and come back again.
    Mr. Lungren. Mr. Chairman, I would wish to discuss it too.
    The Chairman. Go ahead.
    Mr. Capuano. Mr. Chairman, I won't vote for this amendment. 
I don't care how long any subcommittee looks at this issue. I 
won't vote to require Americans to carry IDs unless there is a 
need for that requirement. It is basic civil liberties. I kind 
of feel like the roles have been reversed here. It used to be 
that the right didn't like the Federal Government telling 
people to carry IDs, apparently now it is the left. I am the 
left and I don't want it.
    And this proposal, first of all, is I haven't had anything 
to say on the other amendments. They are all on point. They all 
have some reasonable purpose to say it. This is a whole other 
issue. This is basic civil liberties. Have all the hearings you 
want. There is no way that I would ever vote to require 
Americans to carry an ID and show it to anybody unless there is 
some clear and unequivocal need and purpose for the society.
    There is no allegations by anybody that I have heard of 
widespread voter fraud. People already have the ability if 
there is some known reason to ask somebody if you are really 
who you say you are. You can already do it in a voting place. 
And this is an incredibly slippery slope. What is next? Showing 
an ID and requiring certain information to buy a gun? Oh no, we 
can't do that, can't never do that. But this is okay.
    This is ridiculous. This goes to the basis of civil 
liberties here in America. The last time they tried this to 
require National IDs was in Nazi Germany in World War II. 
Didn't work there and not going to work here.
    The Chairman. Maybe we should recess and come back and I 
will recognize you when we come back. We will have a brief 
recess we have three votes on the floor and then we will 
return. Thank you.
    [Recess.]
    Mr. Chairman. I would like to call our Committee back to 
order. I believe we were on McCarthy Number 2. I think that Mr. 
Lungren had his light on and he agreed to hold off until we got 
back, so I now recognize Mr. Lungren.
    Mr. Lungren. Thank you, Mr. Chairman. Mr. Chairman I 
understand that some people get very exercised over this but 
frankly to suggest that this amendment is somehow anti civil 
rights is, I think, a little extreme.
    Let's remember what the Carter-Baker Commission said.
    The Carter-Baker Commission said to make sure that a person 
arriving at a polling site is the same one who is named on the 
list we propose a uniform system of voter ID based on the real 
ID card or an equivalent for people without a driver's license. 
The Commission noted specifically that there is likely to be 
less discrimination against minorities if there is a uniform ID 
than if poll workers can apply multiple standards.
    In fact, Andrew Young, former U.N. Ambassador and mayor of 
Atlanta, supports the photo ID requirement.
    Now the suggestion is that somehow we will have or 
discriminate against certain peoples, that somehow it will 
diminish or depress voter turnout. Well, voters in nearly 100 
democracies around the world use a photo ID card without fear 
of infringement on their rights. That is the language of the 
Commission.
    Let's take our closest country to the south. In Mexico, 
strict anti fraud regulations in voting have actually increased 
voter turnout. Three Mexican presidential elections since the 
photo ID reforms were implemented in 1991, 68 percent of 
eligible voters voted compared with only 59 percent in the 
three elections prior to the rules change.
    The Mexican ID program is far more than what we suggest 
here. It includes multiple security features, a hologram, 
special fluorescent ink, a bar code, special codes and magnetic 
strip. And it appears that where people have greater confidence 
in the election process there is greater rather than lesser 
participation.
    One of the big issues now on the front pages of the 
newspapers, on television every night in my last town hall 
people talked about this, it is identity theft. People are 
concerned about people using their identity to gain some sort 
of advantage, to gain some sort of benefit, in some cases to 
raid their personal bank account.
    Here we are talking about the essence of democracy, which 
is, that people have the right to vote, but your vote and my 
vote is diminished if someone who doesn't have that right to 
vote votes. And I don't understand why, when we are concerned 
about the integrity of the system we are so afraid to deal with 
this issue and come up with arguments that suggest it is going 
to be oppressive against certain individuals.
    As I say, Mexico has this card system. Canada has a system 
in which you get a ticket in the mail after registering and you 
have to bring that to the voting place. In the Netherlands you 
need a passport or driver's license to be presented. In Brazil, 
you need a picture ID to be presented.
    And for the life of me, I don't understand when we are 
trying to make sure that the person who is voting is the person 
who is supposed to vote, that we somehow say that is an 
infringement on their rights.
    Now, the suggestion has been made that we don't have a 
whole lot of examples of this. I recall when we tried to 
investigate it in California when I was attorney general, the 
lack of proof is there because you have no means of showing at 
the poll that someone is someone other than what they who they 
say to be. And if you suggest that someone stand outside with a 
sign that says only if you are a citizen can you vote, that can 
be viewed as voter intimidation whereas, if, in fact, you 
require everybody to present a photo ID at the time that they 
vote, everybody is treated the same. Every single one of us is 
treated the same.
    And so at a time and place where we are worried about 
identity theft, why aren't we worried about identity theft for 
that most precious of gifts that you have as a citizen of the 
United States, the gift and the responsibility to vote? And so, 
I just don't understand when we are so concerned about a paper 
trail making sure that it properly records votes, we are not 
concerned in the first instance with who it is that is voting.
    And so I wish that we would not view this as an effort to 
diminish voter participation that somehow it is aimed at one 
group or another. If that were true, Mexico, last time I 
checked, is not as wealthy a country as we are, maybe I am 
wrong on that--has far greater poverty than we have, and yet, 
they have greater participation in voting since they have had 
this identification and one--and perhaps for one great reason, 
it instilled a greater confidence in the integrity of their 
system than they had before. Is it perfect? Of course it is not 
perfect. But is it better because of this? Yes, it is. And I 
would hope that we would seriously look at the gentleman's 
amendment and adopt it.
    The Chairman. Thank the gentleman. Mrs. Davis of 
California.
    Mrs. Davis of California. Thank you, Mr. Chairman. I was 
hoping if I could have the author address the issue of absentee 
voting and how you see that. I see the language that you have 
here. How would you--how do you see that in terms of absentee 
voting?
    Mr. McCarthy. You have the ability to send in a photocopy. 
Libraries have copy machines, others you are providing when I 
did it by mail, absentee voting, I have it there for a number 
of days, I can go to a Kinko's, to other places, just photocopy 
my ID and send it in.
    Mrs. Davis of California. And how do we verify that is you?
    Mr. McCarthy. When you sign--when you vote for absentee you 
sign on it. If I worked for this committee and we had one 
contested race. When you turn it in you sign on the card itself 
and they--when they get it into the election office, they 
identify your signature based upon your voter registration.
    Mrs. Davis of California. I am familiar how they do that. I 
have checked those. But I am also trying to get at the whole 
issue of do we know it is that person?
    Mr. McCarthy. We will know more than we know today.
    Mrs. Davis of California. I have to sign my name alongside 
my registration at the precinct itself and so for many people 
obviously they have been voting at the same precinct for years, 
people know them, they don't have to have an ID.
    Mr. McCarthy. You don't have to have an ID today.
    Mrs. Davis of California. You don't have to have an ID, but 
people know you are signing your name and they have that 
verification. But if you are voting in absentee voting--I 
happen to be very supportive of absentee voting--but I also 
think that in some ways, we set up kind of an unequal system 
here because and it is possible for someone to Xerox somebody 
else's license, of course, if they are choosing to, if somebody 
wants to engage in fraud----
    Mr. McCarthy. If the gentlelady would yield.
    Mrs. Davis of California. We can't prove that.
    Mr. McCarthy. When you sign, when you go in and vote in 
person, never does the election department check that signature 
if it was really you who voted. When you vote by absentee 
before that vote is counted, they check that signature. So the 
absentee vote is actually checked more than the person going 
forward. So when you send in that absentee vote and photocopy 
ID it is checked whether that signature is correct before they 
open the ballot.
    Inside when you go to vote, you sign the book. But that is 
never checked unless there is a problem. So you have greater 
checks and balance in absentee in vote by mail than you do any 
other way.
    Mrs. Davis of California. In your system then when you are 
asking for people to go to the trouble, if you will, of trying 
to find a way to Xerox whether it is a license or any other 
kind of ID that that would really be an important----
    Mr. McCarthy. I understand the debate from the other side, 
but I do believe we live in a society where we show our IDs 
many times. We all just used our ID just to vote. I believe 
this is capable of doing. And the name of this bill is the 
ability that we are going to bring confidence back. We are 
willing to shift a whole system that we just went through with 
HAVA on how we want these machines because we want voter 
confidence. We should have 100 percent voter confidence. We 
should make sure those who are allowed to vote like 100 
countries do this, but we don't ask, but you can't get on an 
airplane, you can't rent a car, you can't shop, you can't cash 
a check.
    Mr. Davis of Alabama. Let me, right now, pose this in forms 
of questions to Mr. McCarthy and Mr. Lungren, certainly won't 
take very long to do it.
    Mr. Lungren, you were making the assertion that you didn't 
understand the argument or you weren't very sympathetic to the 
argument on the other side that this had the effect of diluting 
minority voter rights as you were probably aware, the Eleventh 
Circuit Court of Appeals, which is an overwhelmingly Republican 
circuit, ruled several years ago that the Georgia voter ID was 
unconstitutional exactly because it created a dilution of black 
voting participation in Georgia.
    So I would ask you to address that.
    Mr. McCarthy, if I can pose a question to you, if an 
individual walks into a polling place with an intent to commit 
fraud, obviously that person has at least to know the name of 
the voters list. You have to walk in and say your name that is 
on the list obviously. If someone has an nefarious intent to do 
that, I think we would all agree the easiest thing in the 
world, if you doubt this, talk to a 16-year-old, the easiest 
thing in the world is to get a fake ID.
    So if someone is nefarious enough to decide I want to 
pretend to be John Jones and go through a list of voters and 
just distribute the names, it would seem to me that person is 
almost certainly nefarious enough to engage in fake IDs. But I 
would yield to both of you to address it either of those 
points.
    Mr. McCarthy. Well, I will answer first and I will yield 
some time to the former attorney general of California. The 
only thing I would say if today you can walk in and say you are 
somebody and you never can be questioned on it or show an ID, 
that is much easier than going to the task of creating a fake 
ID and trying to show it to vote. I just think it is another 
checks and balances that protects us in the long run. And I 
yield the balance of my time.
    The Chairman. It is not your time to yield. I just want to 
let you know that I am paying attention.
    Mr. Lungren. As understand it, the Eleventh circuit struck 
down the Georgia ID law because of the fact that it did not 
provide dollars--money for indigents for ID cards. And I 
understand, this amendment does provide that benefit so that we 
would get around that number one.
    Number two, look, I don't want the gentleman to think I am 
not sensitive to the concern he expresses. And I believe that 
Andrew young is concerned about what the gentleman expresses 
and came to the conclusion that this would not discriminate 
against any particular group if we applied it across the board.
    And so the gentleman from California's amendment allows 
this, for the provision of funds to reimburse the States for 
the cost of providing such free IDs to the indigent and I 
believe that will take care of the gentleman's problem.
    If I could just also mention one thing, when I was in 
Congress, I think it was 1981, we had a situation in which a 
Member of Congress voted on a resolution that I had on the 
floor which dealt with the disciplining of a Member here who 
had been convicted of 29 felony counts.
    The Member was registered as voting with his electronic 
card, but at the time we voted he was in Chicago conducting a 
hearing for the committee he then chaired.
    It ended up that for whatever reason, apparently some 
Members thought it was okay to vote other Members cards when 
they weren't here. The gentleman first made excuses, finally 
took ill and never did return to the Congress deciding not to 
vote and it brought to me that even as honorable a body as 
this--which I think is an honorable body, and I will defend the 
House of Representatives with attacks by a lot of people--we 
had a situation in which identity theft or identity fraud can 
take place. And we had to take action in this House to make it 
clear that that is a violation of the rules and that Member 
would have been expelled had he not left of his own accord.
    I am just saying that if we found that situation here, 
ought we not to extend that same sort of concern about someone 
voting who doesn't have the right to vote?
    Mr. Davis of Alabama. Let me reclaim and I will wrap this 
up because I know the chairman wants this moved to an end, but 
I do want to correct one factual point my friend from 
California made. If I understand your amendment correctly, you 
put a provision in place for individuals to obtain a government 
ID, in effect, for voting, but you still got to obtain some 
proof of who you are before you get the government ID. For 
example, a birth certificate would be one obvious way to get 
it. Birth certificates aren't free, they cost money. Passport, 
passports cost money, naturalization papers if you don't have 
them, cost money. So in other words, it is not quite as simple 
as you make it sound.
    To obtain the special ID for voter purposes, you would have 
to have an ID for which you would have to pay money 
potentially, and that is squarely what the 11th circuit ruled 
in Georgia was impermissible. They ruled what was impermissible 
was imposing a fee or requiring a fee before one could exercise 
the right to vote.
    If the identification process pushes one in a direction 
toward obtaining fee based documents, I would argue that would 
still run afoul.
    The Chairman. Time is running out. The only people who have 
time left are myself and the Ranking Member. Mr. Ehlers, go 
right ahead.
    Mr. Ehlers. I thank the gentleman. First of all, 
unfortunately Mr. Capuano is not here, but I want to reassure 
them that I am not a Nazi. I also want to inform everyone that 
you do need an ID to buy a gun and I won't comment on his other 
statements.
    I am really appreciative of the fact that we don't have any 
more votes, so we can go for several hours yet without 
interruption.
    The Chairman. I doubt that if I am still here.
    Mr. Ehlers. Here is where the strong gavel comes out. Let 
me just make a couple of points. The gentleman from California, 
the one to my right, commented that when Mexico adopted a voter 
ID, the turnout went up. That is not the only case. Arizona in 
a referendum last year adopted a photo ID. Their voter turnout 
went up. So those who say it will go down when you have a voter 
ID are just dead wrong. The evidence is there.
    Another factor is that last year this committee approved 
and the House passed precisely what we are talking about here, 
a voter ID. We--Mr. Davis, for your information on that made 
certain that anyone who is indigent not only get the ID paid 
for, but they get the backup paper records paid for and any 
legal requirements that were necessary paid for. So no one 
would be discriminated against on the basis of income or access 
or anything else.
    And as I said it passed the House. Everyone seemed to think 
it was a good idea.
    I think that this is a very good idea, something that 
should be required. I am amazed it hasn't been required before.
    The arguments against it are very weak. I just defeated all 
of them. Everyone on our side here has indicated that they are 
not valid arguments. It is something that we simply should 
require for something as valuable as voting. Now, this clearly 
was not necessary in the town where I was born, because the 
voting officials knew everyone in the town. And so when you 
went in to vote they would say, hi Sam, good to see you again, 
et cetera. In today's world, with the tremendous growth in 
population, plus the tremendous mobility of our Nation moving 
from one place to another, I think it is perfectly reasonable 
and logical and, in fact, necessary that we require a voter ID 
from voters if we are required to use a photo ID for so many 
other activities, cashing a check, buying certain goods, buying 
a gun, I can go on and on. What is so awfully bad about 
requiring a voter to carry an ID to indicate that he or she is 
who he or she says they are? I think it is a very, very good 
idea, and I strongly support this amendment.
    I yield back.
    The Chairman. The question is on the----
    Ms. Lofgren. Mr. Chairman I will be very brief.
    The Chairman. I heard that before no matter how long it 
takes.
    Ms. Lofgren. The Eagleton study, which the EAC sponsored 
pointed out that in States where voters were required to 
present ID documents, African Americans were 5.7 percent less 
likely to vote, Hispanics 10 percent less likely to vote, Asian 
Americans 8.5 percent less likely to vote, and the Brendan 
Center said as many as 13 million United States citizens--or 7 
percent--do not have ready access to citizenship documents.
    I would like to make the letter from the Leadership 
Conference on Civil Rights a part of our record, but they 
strongly urge us to oppose this requirement and say that voter 
ID requirements represent one of the most serious threats in 
decades to our efforts to ensure the right of every eligible 
American and that is from Wade Henderson, the leader on civil 
rights in America.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.155
    
    [GRAPHIC] [TIFF OMITTED] 36562.156
    
    Ms. Lofgren. I would just like to note that last year when 
we adopted this provision, not everyone did agree. I certainly 
did not agree. And we have ample evidence that these measures 
do have a discriminatory impact on low income Americans and on 
various ethnicities. And I hope that we can take a broader look 
at this in the Election Subcommittee later in the year, and I 
thank the chairman for his indulgence in letting me say that 
and I yield back.
    The Chairman. Thank you. The question is on the amendment. 
All those in favor, signify by saying ``aye.''
    Any opposed signify by saying, ``no.''
    No.
    The noes appear to have it.
    Mr. McCarthy. I would ask for a roll call.
    The Chairman. Clerk please call the roll.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    Mr. Gonzalez. No.
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Davis of Alabama.
    Mr. Davis of Alabama. No.
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. Yes.
    The Clerk. Mr. Lungren.
    Mr. Lungren. Aye.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Aye.
    The Clerk. Mr. Chairman.
    The Chairman. No. The noes are 5 the ayes are 3. The 
amendment, McCarthy Number 2, fails.
    Mr. McCarthy. Mr. Chairman, I have amendment Number 3 Mr. 
McCarthy at the desk.
    The Chairman. Without objection the amendment is considered 
as read and the gentleman is recognized for five minutes.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.157
    
    [GRAPHIC] [TIFF OMITTED] 36562.158
    
    [GRAPHIC] [TIFF OMITTED] 36562.159
    
    [GRAPHIC] [TIFF OMITTED] 36562.160
    
    [GRAPHIC] [TIFF OMITTED] 36562.161
    
    [GRAPHIC] [TIFF OMITTED] 36562.162
    
    [GRAPHIC] [TIFF OMITTED] 36562.163
    
    [GRAPHIC] [TIFF OMITTED] 36562.164
    
    Mr. McCarthy. Having thought ahead of time of some of the 
arguments you may have to amendment Number 2, I offered in the 
worst case scenario that Number 2 failed, amendment Number 3. 
Such as the earlier amendment, individuals are required to show 
photo ID at the polls. But I have heard from some of the 
arguments across the aisle that maybe you disenfranchise 
somebody. Gentlelady from California, Ms. Davis, stated people 
sign their names when they are in there. So all I would say is 
this provision establishes the important principle that voters 
have to show the photo IDs. If they do not absolutely have the 
voter id when they go in there, all they have to do is sign a 
piece of paper claiming they are who they say they are. So we 
would take away the argument of disenfranchising somebody. This 
is not 100 percent voter proof. But I think it is a step in the 
right direction. They can find a common ground to the arguments 
that are made by the other side that we could come together 
because it wouldn't disenfranchise somebody. They are already 
signing their names at the polls. So they would just have to 
sign their name, stating they are who they are and listening to 
the former attorney general of California saying the reasons 
you don't find cases because you don't have the evidence to 
move forward. So this would also give the ability to have the 
evidence if somebody was providing voter fraud, and then go 
right back to what we have--about this bill itself, giving the 
voters the confidence in it to be able to move forward. I yield 
back my time.
    The Chairman. Thank the gentleman. Lady from California, 
Ms. Lofgren.
    Ms. Lofgren. I note that even though we postponed this 
hearing from last week to this week so that everybody could 
have an opportunity to look at everybody's amendments, I am 
advised by staff that this amendment was received by them only 
15 minutes before the markup began.
    I don't know what the impact of this amendment would be, 
and I think it is something that when we look at this overall 
issue and the Election Subcommittee later in the year we will 
look at, but I think to throw it out at this time with 15 
minutes notice is not the appropriate way to proceed, and so I 
would urge that we oppose it at this time and I thank the 
gentleman for yielding--or I would yield to Mr. Davis.
    Mr. Davis of Alabama. Two quick points. I thank the 
gentlelady for yielding. What is unclear from the amendment, 
let's say the individual, for whatever reason, was not English 
speaking. How would they go about signing the affidavit that 
that is an ambiguity that is contained in the amendment? I can 
also imagine some instances frankly that this would amount to a 
de facto literacy test. And again, someone presumably would 
have to go through some step of reading the document and 
signing it. And I hear the gentleman thinking that well, 
someone should be able to read when they walk in the polling 
places and the problem is, we have had that debate in this 
country before and we have said no literacy tests. And we 
also--I am troubled by the language implications. I yield.
    Mr. McCarthy. Was that a question?
    Mr. Davis of Alabama. Yes, I yield so the gentleman can 
respond to that.
    Mr. McCarthy. To vote in the first place, we make people 
fill out voter registrations. So I think we take the assumption 
from the very beginning that a person can read when they fill 
that out. So I wasn't going to anything further. Plus when a 
person goes to vote, they already are signing their name. They 
have to be able to read where they sign their name. I would 
accept a friendly amendment if you wanted to clarify within 
this amendment that we would provide the language in which the 
person speaks much as if they are----
    Mr. Davis of Alabama. Reclaiming my time let me ask the 
gentleman one quick question if someone were to walk in right 
now and were to fill out the wrong name on the voter form would 
they be prosecuted inside your opinion?
    Mr. McCarthy. Any decision on the prosecution goes up to 
the individual, the DA----
    Mr. Davis of Alabama. No----
    Mr. McCarthy. Reclaiming my time.
    Ms. Lofgren. Actually it is my time.
    Mr. Davis of Alabama. I am trying to get an answer to the 
question. If an individual were to walk in and I were to say I 
am Zoe Lofgren and I were to put Zoe Lofgren down, could I be 
prosecuted today? Because it seems if I could be prosecuted 
today, this amendment is completely unnecessary.
    Mr. McCarthy. No. Only your intent to go forward--to apply 
yourself just like identity theft that you were Zoe Lofgren. 
You had explained to me in the earlier debate that there are no 
cases such as this or not very many. And I have heard from the 
attorney general who says that he couldn't move forward in 
those cases because there was no evidence----
    Mr. Davis of Alabama. The state of the law today, I am 
asking use prosecutorial discretion, and if I walked in and 
said I am Bob Brady under the law today, can I be prosecuted?
    The Chairman. Yes, you would be prosecuted.
    Ms. Lofgren. Reclaiming my time I would just note that Mr. 
Davis is a former U.S. Attorney, and I think has some 
background in all of these things. I think this discussion 
leads me to the conclusion we certainly need to know more about 
this proposal than we do now. And I am sure that when we have 
hearings on this subject matter, we will hear it further.
    I also want to note that the majority staff has indicated 
that the minority staff sent the amendment at 9 p.m. last 
night. I was not sitting in my office at 9 p.m. last night, so 
I don't know. I still think it is way too hurried, but I do 
hope that we can look at this later in the year in the Election 
Subcommittee. And I understand the Chairman wants a vote on 
this. I will yield back so that he may take our vote. Thank 
you.
    Mr. Lungren. Mr. Chairman.
    The Chairman. Yes. Mr. Lungren from California.
    Mr. Lungren. I would like the last word. Mr. Chairman, this 
whole bill is about redundancy. This whole bill is to have a 
second way of checking the accuracy of the voter count, if you 
will, the attestation required by Mr. McCarthy's alternative is 
a redundancy.
    It is another check to ensure that people are not going to 
commit fraud. As the gentleman knows, when you prosecute, 
sometimes it may be easier to prosecute for someone 
intentionally signing something under oath that is untrue as 
opposed to them attempting to prove the intent to vote 
improperly.
    The other thing is, I am just sorry, but the arguments I 
hear about this could be utilized as a literacy test or this 
could be utilized as a voter fee. I mean, all those arguments 
can be used by registration. If I were to take a logical 
conclusion of my friends on the other side of the aisle we 
ought to do away with registration. I presume that would 
increase voter participation. Anybody just shows up off the 
street can vote. I know there might be fraud involved but it is 
more important that we get more people voting whether or not 
they qualify.
    I mean, the manner in which these amendments are being 
dismissed suggests that there is no concern about the identity 
of voters, that somehow this bill which purports to ensure that 
we are going to protect the integrity of the voting process, 
doesn't believe that identity fraud or identity theft has any 
place in our discussions, even though it is the hot topic out 
there in terms of credit cards, in terms of all sorts of things 
in this new world that we live in. And I just find it hard to 
believe that Mexico can be ahead of us in terms of its concerns 
for the integrity of its system and yet we say if we did this 
sort of thing it would somehow violate constitutional norms 
because it would be utilized in ways to depress turnout, when, 
in fact, just the opposite has been the case in Mexico, in any 
number of countries around the world.
    Someone diminishes my vote by voting when they don't have a 
right to vote as surely as if you refused to allow me to vote 
when I have the opportunity to vote.
    And we look at this only on one side.
    And I just think that that is a terrible shame. And I would 
hope that we would at least look at the gentleman's amendment 
for what it is and not for some of the outrageous things it has 
been suggested it is for. I yield.
    The Chairman. The question is on the amendment?
    Ms. Lofgren. Mr. Chairman before we vote, may I ask 
unanimous consent to add into the record the article from Roll 
Call, of The New York Times and The New York Times editorial on 
this subject and the National Leadership Council letter?
    The Chairman. Without objection.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.165
    
    [GRAPHIC] [TIFF OMITTED] 36562.166
    
    [GRAPHIC] [TIFF OMITTED] 36562.167
    
    [GRAPHIC] [TIFF OMITTED] 36562.168
    
    [GRAPHIC] [TIFF OMITTED] 36562.169
    
    [GRAPHIC] [TIFF OMITTED] 36562.170
    
    [GRAPHIC] [TIFF OMITTED] 36562.171
    
    [GRAPHIC] [TIFF OMITTED] 36562.172
    
    [GRAPHIC] [TIFF OMITTED] 36562.173
    
    [GRAPHIC] [TIFF OMITTED] 36562.174
    
    [GRAPHIC] [TIFF OMITTED] 36562.175
    
    [GRAPHIC] [TIFF OMITTED] 36562.176
    
    [GRAPHIC] [TIFF OMITTED] 36562.177
    
    [GRAPHIC] [TIFF OMITTED] 36562.178
    
    [GRAPHIC] [TIFF OMITTED] 36562.179
    
    [GRAPHIC] [TIFF OMITTED] 36562.180
    
    [GRAPHIC] [TIFF OMITTED] 36562.181
    
    [GRAPHIC] [TIFF OMITTED] 36562.182
    
    Mr. Ehlers. Mr. Chairman, I just want to briefly lend my 
support to what the gentleman from California just stated. Mr. 
Lungren has made his case very clearly and very eloquently. I 
strongly support that. I just cannot, for the life of me, 
figure out what the opposition is. We have answered all the 
questions of the majority. We have made sure that others can 
establish an ID if they wish, and we would pay for it. If they 
don't have it, they simply sign their name saying that they are 
who they are.
    There must be some other reason for opposing it. I would 
also just close by saying that if we don't pass something like 
this, I predict it is going to pass State by State probably 
through referendum or other means. Then once again, we will 
have a hodgepodge system. It would be much easier to have one 
law that covers the Nation, makes it very clear from State to 
State. With that, I will yield back.
    The Chairman. Thank you. The question is on the McCarthy 
amendment Number 3.
    All those in favor, signify by saying ``aye.''
    Those opposed, ``no.''
    No.
    The noes have it.
    Mr. McCarthy. Mr. Chairman, I request a roll call vote.
    The Chairman. Roll call vote. Clerk please call the roll.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    [No response.]
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. No.
    The Clerk. Mr. Davis of Alabama.
    Mr. Davis of Alabama. No.
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. Yes.
    The Clerk. Mr. Lungren.
    Mr. Lungren. Aye.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Aye.
    The Clerk. Mr. Chairman.
    The Chairman. No.
    The noes are 5 the yeas are 3, the amendment fails.
    Mr. Lungren. Mr. Chairman.
    The Chairman. I recognize the gentleman from California.
    Mr. Lungren. Mr. Chairman I have Lungren Number 4.
    The Chairman. Without objection, the amendment is 
considered as read and the gentleman is recognized for five 
minutes.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.183
    
    Mr. Lungren. Mr. Chairman, this goes to the provision of a 
private right of action contained in the bill and contained in 
the manager's amendment or substitute. This amendment would 
strike the provisions allowing individuals to bring action in a 
Federal court to enforce requirements contained in Title 3 of 
HAVA.
    Already pursuant to HAVA, States have set up administration 
complaint procedures to provide sufficient Federal and State 
enforcement of the requirements.
    This private right of action provision would open the DOJ 
and attorney general to thousands of claims and force the 
attorney general to respond in some manner to any complaint 
meeting the standards of the bill.
    I fear the language is overly broad and will result in 
slowing down the process of determining election results and 
subject local governments to spend millions of dollars on what 
could be politically motivated lawsuits.
    The DOJ if you examine their budget, in their current 
situation does not have the capacity of staff to handle the 
volume of potential claims.
    You can promise something. You can give an authorization to 
a department such as DOJ, and the ability for something to get 
done may not be there.
    I recall having 1,000 attorneys and 5,000 employees when I 
was attorney general of California, not nearly the size of the 
Federal DOJ, but nonetheless, you have limitations on your 
resources. And just because there is a law saying that it comes 
within your ambit, if you don't have a budget that allows you 
to do it, it just--the purpose of the law is frustrated.
    And that is why, when under the preexisting law, HAVA, a 
requirement for the States to set up administrative complaint 
procedures, is now in place, you wonder why we change under 
this provision and open up private rights of action and require 
the DOJ or presumably require the DOJ and the attorney general 
to respond to the potential of thousands of claims.
    The intent of the law, HAVA, was to improve elections, I 
thought, not to expand litigation.
    As an old trial attorney, I love litigation. And some of my 
colleagues, and even I, on occasion, made money on litigation.
    But, I also saw the limitations of litigation. And 
oftentimes, administrative complaint procedures worked far 
better than the formal court system.
    The National Motor Voter Law has private right of action 
for claims. And there is section 1983 of the Civil Rights Act 
which is available if they qualify under that.
    And so I would just ask that we reach a mid course 
correction here, which is to say that the administrative 
complaint procedures were established under HAVA, they exist, 
as I understand it, in all States, and that that allows for 
sufficient and timely enforcement of the requirements where 
this may very well lead to litigation with endless processes 
which would not allow for final determination of claims.
    And with that I would yield back the balance of my time.
    The Chairman. Thank the gentleman. Any other discussion on 
the amendment? The question is on the amendment.
    All those in favor, signify by saying ``aye.''
    Those opposed, ``no.''
    No.
    The noes have it.
    Mr. Lungren. Mr. Chairman could I have a roll call vote on 
that.
    The Chairman. Clerk please call the roll.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    Mr. Gonzalez. No.
    The Clerk. Mrs. Davis of California.
    [No response.] 
    The Clerk. Mr. Davis of Alabama.
    Mr. Davis of Alabama. No.
    The Clerk. Mr. Ehlers.
    [No response.]
    The Clerk. Mr. Lungren.
    Mr. Lungren. Aye.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Aye.
    The Clerk. Mr. Chairman.
    The Chairman. No. The noes are 5, the yeas are 2, the 
amendment fails.
    Mr. McCarthy. Mr. Chairman, I have amendment Number 4.
    The Chairman. I recognize Mr. McCarthy from California. 
Without objection the amendment is considered as read and you 
are recognized for five minutes.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.184
    
    [GRAPHIC] [TIFF OMITTED] 36562.185
    
    Mr. McCarthy. I thank you for your patience Mr. Chairman. 
This is pretty straightforward. As we move forward, we have to 
remember where we have been. In these hearings, we have heard 
time and time again about just recently how we passed HAVA and 
that we have not funded HAVA, there is still approximately $800 
million that has not been funded through HAVA. A lot of States 
have spent a lot of money buying machines, going forward with 
counties and others. This would put an amendment into the bill 
that would suspend the requirements of this bill until the 
authorization amount of the money is fully appropriated.
    Now why do I offer that? Is to build the trust. We have 
just forced these States to go through something saying this is 
the direction we wanted to go. Now we are coming full circle 
right back and saying we want you to do something else. We say 
we have authorized the money but history shows we have not 
funded it all the way. And I have come from State government. 
The first thing I have always had problems with was unfunded 
mandates. Now we are directing it. We say there is money there. 
All this is saying is that if that is truthful, if the money is 
there, there wouldn't be a problem because this would suspend 
the problem if the money is not there. If the money is there, 
there is no problem whatsoever. So to me it is a friendly 
amendment.
    Mr. Davis of Alabama. Mr. Chairman, I move to adopt with 
respect to No Child Left Behind.
    The Chairman. We get like that after 4 or 5 hours. Does 
anyone else want to be recognized? Discussion on the amendment? 
The question is on the amendment. All those in favor, signify 
by saying ``aye.''
    All those opposed? No.
    The noes have it.
    Mr. McCarthy. Mr. Chairman I request a roll call vote.
    The Chairman. Roll call vote by the Clerk please. McCarthy 
Number 4.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    Mr. Gonzalez. No.
    The Clerk. Mrs. Davis of California.
    [No response.] 
    The Clerk. Mr. Davis of Alabama.
    Mr. Davis of Alabama. No.
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. Aye.
    The Clerk. Mr. Lungren.
    Mr. Lungren. Aye.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Aye.
    The Clerk. Mr. Chairman.
    The Chairman. No. The noes are 5, the yeas are 3, the 
amendment fails.
    Mr. Lungren. Mr. Chairman, I think I have the last 
amendment.
    The Chairman. Oh, whoopee.
    The Chair recognizes the gentleman from California, Mr. 
Lungren. Without objection, the amendment is considered as read 
and you are recognized for five minutes.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.186
    
    [GRAPHIC] [TIFF OMITTED] 36562.187
    
    [GRAPHIC] [TIFF OMITTED] 36562.188
    
    [GRAPHIC] [TIFF OMITTED] 36562.189
    
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Mr. Chairman, this is a very simple amendment. It would 
delay implementations of the bill until 2012. Based on the 
testimony and the letters that we have received from election 
officials across the country, that the dates proscribed in the 
bill are unattainable. Testimony presented to the subcommittee 
on elections suggest that the changes that are required under 
this bill would require approximately 18 months to 4 years to 
accomplish.
    As a matter of fact, the letter from the one disability 
organization, American Association of People with Disabilities, 
they believe it would be even longer. They suggest that we have 
a date of 2014, however being very reasonable I thought that 
was very too long. So my amendment has 2012 in it.
    Mr. Lungren. There is no voting system currently certified 
and in use that meets the very specific requirements proposed 
in this bill, nor are there such systems available in the 
market that can be and have been or can be appropriately tested 
and certified for use through the EAC voting system 
certification program by the year 2008. State and local 
election officials and voters continue to absorb the sweeping 
changes brought about by our previous law, HAVA--almost sounds 
like a school on the East Coast as spoken of by some members 
from Massachusetts--but HAVA and State legislation. It is 
unrealistic for the States to implement all these new Federal 
mandates by 2008. Standards and guidelines should be 
established before requiring States to purchase this new voting 
equipment.
    The bill before us unfortunately fails to recognize the 
need for public outreach and education associated with new 
voting equipment and procedures, including poll workers and 
poll worker training for these new machines. Compliant voting 
systems under this bill are limited. DRE systems that would 
comply do not exist at all. Ballot conversion equipment and 
software to meet the disability access requirements has not 
been tested or certified or used by any existing voting system. 
And when you realize we have what I consider to be 
unenforceable or absent penalties in this bill with respect to 
source code nonpublication information, then I think you 
understand we might even have more difficulty in getting 
vendors out there to participate.
    A famous political scientist named ``Dandy'' Don Meredith 
once said, ``If ifs and buts were candy and nuts, every day 
would be Christmas,'' and it appears in many ways that's what 
this bill is. We have been told that those who are out there 
that would be given the responsibility for doing this can't do 
it. We have been doing that from counties as large as Los 
Angeles to counties as small as in my district in Amador County 
up in the mountains. And yet we carry on with this bill as if 
we believe it is going to happen because we wish it so. It 
would be wonderful if that is the way the world works, but it 
doesn't.
    So I am attempting to not do anything else in the bill. 
Everything else remains the same but delay implementation so 
that we can actually ensure that those things that we believe 
are required under this bill can actually come to fruition. So 
it is a delay of the implementation until the year 2012.
    And with that, I yield back the balance of my time and I 
have no more amendments. I know the chairman will be 
disappointed to hear that.
    The Chairman. I am having fun.
    Ms. Lofgren. Mr. Chairman.
    The Chairman. Yes, the lady from California, Ms. Lofgren.
    Ms. Lofgren. I oppose the amendment and urge that all of my 
colleagues oppose the amendment. To delay this process, to 
delay the ability to recount in elections and to have a 
transparent process until 2012, which would be two Federal 
elections from now, is I think entirely unreasonable. The 
timing of the bill is not too aggressive. If we enact this 
promptly, I think there is adequate time to implement it. Those 
of us on the Election Subcommittee, I am sure all remember that 
the Republican Governor of Florida came and was a witness at 
our hearing. And he advised us at that hearing that the entire 
State of Florida is going to transition to an optical scan 
voting scheme before November 2008--actually before February 
was what he told us. We know that in the past jurisdictions 
have been able to transition rapidly. Aside from the fact that 
the bill, the substitute allows jurisdictions to retain their 
DREs equipped with thermal reel-to-reel printers or accessible 
voting systems that use or produce the paper trail until 2010, 
only the jurisdictions that use voting systems that had no 
voter-verified paper trail at all have to upgrade, and that is 
a small jurisdiction.
    Take a look at New Mexico. New Mexico enacted a law March 
2, 2006 requiring conversion from a mixed system with paperless 
electronic voting machines to a uniform statewide system using 
paper optical scan ballots with accessible ballot marking 
devices. All 33 counties fully deployed the system 8 months 
later in time for the 2006 mid-term election.
    Nevada's then Secretary of State, now Representative Dean 
Heller, mandated in December of 2003 that the State would 
obtain new voting systems with voter-verified paper records. By 
the following August, just 8 months later, 16 of 17 counties 
deployed voter-verified paper record systems countywide in time 
for the primary, and all counties had them for the November 
2004 presidential election.
    In North Carolina they enacted a law requiring voter-
verified paper records on August 26, 2005. Eight months later, 
in time for the May 2006 primary, the entire State had 
completed the conversion process, including RFP, testing 
certification and training to the new systems.
    West Virginia enacted a law requiring voter-verified paper 
records in May of 2005. Every county had new voter-verified 
paper record equipment in place for the primary the following 
year.
    What is at stake is whether we have another unverifiable 
Federal election, potentially a presidential election, the 
results of which might depend on one State, and the results in 
that State might not be independently verifiable because there 
are no voter-verified paper ballots. We don't have to put up 
with that. We can get this done in time for the 2008 election. 
We have ample waiver opportunities for those who have old 
systems, but I think it is time for the Congress to say enough 
is enough. Certainly we can ask States and localities to step 
forward and take the action that they are capable of taking, as 
New Mexico did, as Nevada did, as North Carolina did, as West 
Virginia did, and as Florida is going to do.
    I think that the amendment offered by the gentleman just 
guts this bill, and I hope that all of us will vote against it 
and, noting that the time is late, I will----
    Mr. Lungren. Would the gentlelady yield?
    Ms. Lofgren. I will yield back to the chairman because he 
wants a vote.
    The Chairman. Recognize Mr. Ehlers. Mr. Ehlers.
    Mr. Ehlers. Thank you. First of all, I believe this 
amendment summarizes what needs to be done to make this a 
workable bill. This is just one aspect of it, but let me 
discuss the whole bill as a whole. I am really bothered by it. 
First of all, this authoritarian view that what we do in the 
United States Congress is the right way to do it. We don't care 
what the States think, we don't care what the local governments 
think, we don't care what the county clerks think, and we don't 
care what the city clerks think.
    I show this stack of letters over two inches high, Indiana, 
Arizona, Iowa, North Dakota, West Virginia, Michigan, Ohio, 
South Carolina, Florida, Tennessee, Oregon, Colorado, Wyoming, 
Vermont, California, Kentucky, Los Angeles, which is not a 
State of its own, but I think most people know where it is. 
Arkansas, Georgia, Missouri, Pennsylvania, Virginia, Illinois, 
Maryland, North Carolina, Washington, New York, and so on down. 
I don't want to take all the time to list all of them. These 
people know what they are doing. They have to work with us. 
They all wrote in and said this bill is not good. It should not 
pass in its present form. And yet the majority insists on 
passing it just as is without a single word changed, not 
accepting any of our amendments.
    I am also concerned about the attitude displayed by the 
majority, that somehow computers are bad, but paper is good. I 
think it is a gross mistake to require them to use one of the 
two alternatives without letting them use their own judgment.
    This bill supersedes the judgments of the city clerks, and 
the county clerks, and the State election officials. It is 
simply wrong for us to force our ideas and our opinions on the 
good people of this country who are used to running elections, 
know how to do it, and know what problems this legislation 
brings.
    Mr. Chairman, I have the highest respect for you. I know 
you are running for another office and I wish you well. I hope 
you make it. But I hope this bill doesn't pass. I would like to 
keep you here, by the way. I want to make it clear, but for 
your own benefit since you want the job, I hope you will get 
it. I also hope for your sake if you do get it that this bill 
doesn't pass because you would have to live with it.
    The one consolation I have throughout all this is that I am 
sure the Senate will not accept the bill as it stands. I am 
sure they will drastically rewrite it, and I hope that it 
becomes a good bill before it becomes law. But I am very 
disappointed in the discussion today and the rejection of all 
of our amendments even though there is no logical argument why 
we should not accept them.
    Ms. Lofgren. Would the gentleman yield?
    Mr. Ehlers. With that, I will yield back my time.
    The Chairman. The gentleman from California, Mr. McCarthy.
    Mr. McCarthy. Thank you, Mr. Chairman. I just want to 
clarify a few things that were said. I was here when the 
Governor of Florida came. He never endorsed this bill, and the 
legislation that Florida passed out down allows continued use 
of DRE machines without paper into 2012. We have gone through 
HAVA and it took 4 years. I come from a large State of 
California where we just made everybody switch. Just to put 
this out to bid, just to go forward--and we have moved our 
primary up. And to have this type of confusion in a year of a 
presidential election I don't think is the right way to go 
about it and does not really come to the commonsense as we move 
forward.
    I listened to the Governor of Florida and I listened to 
each and every organization that represented election 
officials. They were unanimous in their approach that they 
thought this was the wrong way to go.
    I yield back the balance of my time.
    The Chairman. I thank the gentleman. Any other discussion? 
The question is on the amendment. All in favor signify--I am 
sorry. I recognize the gentleman from Texas.
    Mr. Gonzalez. I didn't know if this was the appropriate 
time. Mr. Chairman, I would just be asking unanimous consent at 
this time to be allowed to file today the papers of this 
hearing, that they be made part of the record. The statement of 
concern regarding the nature of H.R. 811 and the problems of 
electronic voting technologies and electronic ballots from the 
Puerto Rican Legal Defense and Education Fund.
    Ms. Lofgren. Would the gentleman yield?
    Mr. Gonzalez. Yes.
    Ms. Lofgren. I just wanted to briefly address the issue of 
amendments because we have not accepted amendments here today 
because we didn't agree with them, but I think it is important 
to note that when we postponed the markup last week we did look 
through the amendments that had been offered. We did adopt 
several of them in the substitute, and prior to the markup our 
staffs went through and scrubbed the substitute, making changes 
that were suggested by the majority in about eight instances.
    So I understand the minority still disagrees with the bill, 
but I think it is important to note that we have tried to 
collaborate where we can.
    I would further note that of the list of states that the 
ranking member just read, only six would have to make changes 
by 2008. In some cases--you know it reminds me of the election 
official from North Dakota who said gosh, you know, this would 
require optical voting systems. But his State already has 
optical voting systems. So I think there is a lot of resistance 
to change from individuals in States that have already fully 
complied with the act and with the substitute, and with that, I 
would yield back to Mr. Gonzalez and thank him for yielding me 
the time.
    Mr. Gonzalez. Thank you very much, Ms. Lofgren. Simply 
again, just ask for unanimous consent to allow me to file the 
statements.
    The Chairman. Without objection, so ordered.
    Mr. Gonzalez. Thank you, Mr. Chairman.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.190
    
    [GRAPHIC] [TIFF OMITTED] 36562.191
    
    [GRAPHIC] [TIFF OMITTED] 36562.192
    
    [GRAPHIC] [TIFF OMITTED] 36562.193
    
    The Chairman. All those in favor of the Lungren amendment 
No. 5 signify by saying ``aye.'' Any opposed ``no.'' The noes 
have it. A roll call vote is requested.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. No.
    The Clerk. Mr. Capuano.
    Mr. Capuano. No.
    The Clerk. Mr. Gonzalez.
    Mr. Gonzalez. No.
    The Clerk. Mrs. Davis of California.
    [No response.] 
    The Clerk. Mr. Davis of Alabama.
    Mr. Davis of Alabama. No.
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. Yes.
    The Clerk. Mr. Lungren.
    Mr. Lungren. Aye.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. Aye.
    The Clerk. Mr. Chairman.
    The Chairman. No.
    The noes are 5, the yeas are 3. The amendment fails.
    We are now on the substitute. Ms. Lofgren had to leave. We 
wanted to have some more discussion on the substitute. We will 
open the floor up for discussion on Ms. Lofgren's amendment in 
the nature of a substitute, as amended.
    Mr. Ehlers. Mr. Chairman, I have already said my piece 
about the Lofgren substitute, and I just registered my dismay 
that the bill is passing in this form. I yield to any of my 
colleagues who wish to make a closing comment.
    Mr. McCarthy. Mr. Chairman, I think we have had some 
lengthy debate here into the amendments and some of the 
concerns that we have with this bill, starting out the time, 
second the money. We had three hearings in the subcommittee, 
and I will tell you, election official after election official 
that does this came forward and said, there is real concerns 
about this. I have sat down and talked to many of them. They 
want to work with us. The Association of Counties, the 
Association of Elected Officials--that is not just your 
Secretaries of States. That is all the way down--are opposed to 
it. And I understand when Ms. Lofgren says we are not going to 
sit and wait for them just to support something all the way, 
but I do believe there is a way to do it where we can find 
common ground.
    When we have a presidential election, when this society is 
able to be strong together with the trust they have in an 
election, and this is what this is about, bringing greater 
confidence, when we are not even going to deal with who is 
there to vote and we are going to predetermine who is the 
winner and loser, saying that the paper is always right even 
though we see elected officials come to us and say the paper 
jammed. So knowingly, we are voting for a bill that determines 
the outcome of an election, knowing that system doesn't always 
work right. We would rather have a checks and balance.
    I believe there is an ability within this committee to 
craft a bill that is bipartisan, commonsense and that everybody 
can be behind. That is where I would want to be. I would think 
when you are dealing with elections, you put people before 
politics. And I just feel frustrated with the outcome of which 
way I see this going.
    Yield back my time.
    Mr. Lungren. Mr. Ehlers, do you yield?
    Mr. Ehlers. Yes, I would be pleased to yield to my 
colleague.
    Mr. Lungren. I am with those who believe we ought to be 
concerned about the integrity of our system and that we ought 
to have a system in which our constituents have confidence, and 
that can come about in a number of ways. Evidently this bill 
has made the determination that paper is the way to do it. When 
I was a kid I remember playing rock, scissors, paper. But I 
guess now it is rock, scissors, paper and computer, and paper 
always wins. Now maybe that is what we have to do. I am just 
not convinced that we have made that determination 
appropriately yet. And also from my experience at the State 
level, maybe I am conditioned by this because I remember the 
FBI used to always come in and tell us they knew best. They 
always wanted information, they rarely shared information, but 
they knew better than we did on how to do things. And I hope we 
are not doing that with this bill because there does seem to be 
on the part of most of the election officials I know a desire 
to have a system that works well and a system that does have 
integrity within it. And the frustration I get from the folks 
back home is, you folks told us how to do it just a couple 
years ago. We tried in good faith to do it. Now you are telling 
us that didn't quite do it, so you are asking us to do 
something completely different, you are giving us less than 
half the time frame you gave us before, we saw you didn't give 
us the money that we needed last time. Please accept our 
promise you are going to get the money, and in reflecting on my 
experience at the State level, that is a whole lot to swallow 
and to accept.
    And I just hope that we understand that this bill probably 
is not going to go very far in the Senate, and I don't say that 
as a threat because we ought to pass what we think is right and 
then deal with the Senate. But if in fact that is true, I hope 
we can come back and work on a bipartisan basis to do what I 
hope we all want to do, which is to extend the possibility of 
participation in our electoral process, give a greater sense of 
confidence in the integrity of our system and do it in a way 
that is user friendly, both to the voter and to the local and 
State officials that are required to enforce the law.
    I thank the gentleman for yielding.
    Mr. Ehlers. Thank you, Mr. Chairman. I agree totally with 
the statements of the two members on my side of the aisle. I 
yield back the balance of my time.
    The Chairman. Thank you. The question is on agreeing to the 
Lofgren amendment in the nature of a substitute, as amended. 
All in favor signify by saying ``aye.'' All those opposed 
``no.'' In the opinion of the Chair, the ayes have it.
    Mr. Ehlers. I ask for a recorded vote.
    The Chairman. Okay. I will help you along here. Recorded 
vote is requested. The Clerk will call the roll.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. Aye.
    The Clerk. Mr. Capuano.
    Mr. Capuano. Aye.
    The Clerk. Mr. Gonzalez.
    Mr. Gonzalez. Aye.
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. Aye.
    The Clerk. Mr. Davis of Alabama.
    Mr. Davis of Alabama. Aye.
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. No.
    The Clerk. Mr. Lungren.
    Mr. Lungren. No.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. No.
    The Clerk. Mr. Chairman.
    The Chairman. Aye.
    The ayes are 6, the noes are 3. The amendment in the nature 
of a substitute, as amended, is agreed to. The Chair now 
recognizes the gentlewoman from California to offer a motion.
    Ms. Lofgren. Mr. Chairman, I move that the Committee report 
the bill, H.R. 811, as amended, favorably to the House.
    The Chairman. The motion is not debatable. Those in favor 
say ``aye.'' Any opposed say ``no.'' The ayes have it.
    Mr. Ehlers. I ask for a roll call.
    The Chairman. I will have the Clerk call the roll.
    The Clerk. Ms. Lofgren.
    Ms. Lofgren. Aye.
    The Clerk. Mr. Capuano.
    Mr. Capuano. Aye.
    The Clerk. Mr. Gonzalez.
    Mr. Gonzalez. Aye.
    The Clerk. Mrs. Davis of California.
    Mrs. Davis of California. Aye.
    The Clerk. Mr. Davis of Alabama.
    Mr. Davis of Alabama. Aye.
    The Clerk. Mr. Ehlers.
    Mr. Ehlers. No.
    The Clerk. Mr. Lungren.
    Mr. Lungren. No.
    The Clerk. Mr. McCarthy.
    Mr. McCarthy. No.
    The Clerk. Mr. Chairman.
    The Chairman. Aye.
    The ayes are 6, the noes are 3. The motion is agreed to. 
Without objection, the motion to reconsider is laid upon the 
table and the bill as amended will be reported to the House.
    Mr. Ehlers. Mr. Chairman?
    The Chairman. Yes, Ranking Member, Mr. Ehlers.
    Mr. Ehlers. Pursuant to clause 2(L) of House rule XI, I 
announce that I am requesting the two additional calendar days 
provided by that rule during which members may file 
supplemental minority or additional views for inclusion in the 
report to the House.
    The Chairman. Members will have two additional days 
provided by House rules to file views. Without objection, the 
staff will be authorized to make technical and conforming 
changes to prepare H.R. 811 for filing.
    We have a couple other pieces of business that we have to 
dispose of. The Committee will now consider four original 
resolutions to dismiss pending election contests. Each of these 
resolutions will then be reported to the House as privileged.
    I now call up an original resolution relating to an 
election contest in the 5th District of Florida, the text of 
which is before the Members. Without objection, the first 
reading of the resolution will be dispensed with and the 
resolution shall be considered as read and open for amendment 
at any point. I now recognize the gentlewoman from California, 
Mrs. Davis.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.194
    
    Mrs. Davis of California. Mr. Chairman, we have reached a 
bipartisan agreement that the election contest relating to the 
5th District of Florida is without merit and should be 
dismissed.
    The Chairman. Any additional debate on the resolution? Mr. 
Ehlers agrees. The Chair recognizes the gentlewoman from 
California for the purpose of making a motion.
    Mrs. Davis of California. Thank you, Mr. Chairman. I move 
that the Committee report favorably to the House an original 
resolution, the text of which is before us, to dismiss the 
election contest in the 5th District of Florida.
    The Chairman. The question is on the motion by the 
gentlewoman from California. All those in favor say ``aye.'' 
Any opposed? The ayes have it. The motion is agreed to.
    Without objection, a motion to reconsider is laid upon the 
table. The resolution will be reported to the House. Members 
will have two additional days provided by House rules to file 
views.
    I now call up an original resolution relating to an 
election contest in the 21st District, Florida, the text of 
which is before the Members. Without objection, the first 
reading of the resolution will be dispensed with and the 
resolution will be considered as read and open for amendment at 
any point. I recognize the gentlewoman from California.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.195
    
    Mrs. Davis of California. Mr. Chairman, we have also 
reached a bipartisan agreement that the election contest 
relating to the 21st District of Florida is without merit and 
should be dismissed.
    The Chairman. Is there any additional debate on the 
resolution?
    Mr. Ehlers. The minority agrees.
    The Chairman. The Chair recognizes the gentlewoman from 
California for the purpose of making a motion.
    Mrs. Davis of California. Mr. Chairman, I move that the 
Committee report favorably to the House an original resolution, 
the text of which is before us, to dismiss the election contest 
in the 21st District of Florida.
    The Chairman. The question is on the motion by the 
gentlewoman from California. All those in favor signify by 
saying ``aye.'' Any opposed? The ayes have it. The motion is 
agreed to.
    Without objection, a motion to reconsider is laid upon the 
table. The resolution will be reported to the House. Members 
have two additional days provided by House rules to file views.
    I now call up an original resolution relating to an 
election contest in the 24th District of Florida, the text of 
which is before the Members. Without objection, the first 
reading of the resolution will be dispensed with and the 
resolution shall be considered as read and open for amendment 
at any point. I recognize again the gentlelady from California.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.196
    
    Mrs. Davis of California. Thank you, Mr. Chairman. We have 
reached another bipartisan agreement on the election contest 
relating to the 24th District of Florida.
    In this case, Mr. Chairman, I just want to mention because 
I know members have heard from individuals from the community. 
We certainly realize that Mr. Curtis and his supporters have 
worked very diligently to demonstrate that this contest merits 
further consideration. They have knocked on thousands of doors, 
and we recognize their dedication. But under our strong 
protection for secret ballots, the law can not recognize sworn 
affidavits as a substitute for votes cast via secret ballot. 
Under the Federal Contested Election Act, this contest fails to 
reach the necessary thresholds to warrant further 
consideration, and therefore it is also to be dismissed.
    The Chairman. Thank you. Is there any additional debate on 
the resolution?
    Mr. Ehlers. We agree.
    The Chairman. The Chair recognizes the gentlewoman from 
California for the purpose of making a motion.
    Mrs. Davis of California. Mr. Chairman, I move that the 
Committee report favorably to the House an original resolution, 
the text of which is before us, to dismiss the election contest 
in the 24th District of Florida.
    The Chairman. The question is on the motion by the 
gentlewoman from California. All those in favor signify by 
saying ``aye.'' Opposed? The ayes have it. The motion is agreed 
to.
    Without objection a motion to reconsider is laid upon the 
table. The resolution will be reported to the House. Members 
will have two additional days provided by House rules to file 
views.
    Finally, I call up an original resolution relating to an 
election contest in the 4th District of Louisiana, the text of 
which is before the Members.
    Without objection, the first reading of the resolution will 
be dispensed with, and the resolution shall be considered as 
read and open for amendment at any point. I recognize the 
gentlewoman from California.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.197
    
    Mrs. Davis of California. Thank you, Mr. Chairman. We have 
indeed reached another bipartisan agreement that the election 
contest relating to the 4th District of Louisiana, that this 
case is not a proper subject for a contest brought under FCEA 
and should be dismissed.
    The Chairman. Is there any additional debate on the 
resolution?
    Mr. Ehlers. The minority agrees.
    The Chairman. The Chair recognizes the gentlewoman from 
California for the purpose of making a motion.
    Mrs. Davis of California. Mr. Chairman, I move that the 
Committee report favorably to the House an original resolution, 
the text of which is before us, to dismiss the election contest 
in the 4th District of Louisiana.
    The Chairman. The question is on the motion by the 
gentlewoman from California. All those in favor signify by 
saying ``aye.'' Any opposed? The ``ayes'' have it. The motion 
is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table. The resolution will be reported to the House. 
Without objection, the staff will be authorized to make 
technical and conforming changes to prepare each of the four 
resolutions for filing.
    The final item of business today is approval of a Committee 
resolution to approve franked mail allowances for the standing 
and select committees of the House for the 110th Congress.
    The Chair now calls up Committee Resolution No. 4, which is 
before the Members. Without objection, the first reading will 
be dispensed with, and without objection, the Committee 
resolution will be considered as read and open for amendment.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.198
    
    [GRAPHIC] [TIFF OMITTED] 36562.199
    
    The Chairman. Committee Resolution No. 4 provides franking 
funds for committees and select committees for the 110th 
Congress and is not sent to the House floor. Our Committee is 
responsible under statute for limiting the amount of franking 
funds each committee may spend. The franking allocation is 
unrelated to the operating budgets that we give committees in 
the omnibus funding resolution. We adopted a similar version of 
this resolution two years ago with the same $5,000 with 
bipartisan support.
    I will inform each Committee Chairman of our action today. 
If any committee needs, and can justify, additional franking 
funds, I will bring that request back to House Administration 
for consideration.
    The Chair now recognizes the Ranking Member.
    Without objection, the previous question is ordered. The 
question is now on agreeing to Committee Resolution No. 4. All 
those in favor say ``aye,'' those opposed ``no.'' The ``ayes'' 
have it. The Committee resolution is agreed to.
    Without objection, the motion to reconsider is laid upon 
the table. Without objection, the staff will be authorized to 
make any technical and conforming changes to the Committee 
resolution.
    One more announcement of ``interim authority'' actions. The 
Chair would like to conclude by making an announcement of the 
exercise of ``interim authority'' on behalf of the Committee. 
This announcement is usually done at the organizational 
meeting. With the Chairwoman no longer with us, I will complete 
the process today.
    The Chairwoman undertook the following actions on behalf of 
the Committee in the 110th Congress prior to its organization. 
She approved 5 consultant contracts, 15 detailee requests, and 
5 Federal retirement waivers. In addition, she requested the 
preservation of equipment relevant to the pending election 
contest. I am not aware of any other actions under interim 
authority.
    There being no more further business before us, the 
Committee stands adjourned.
    [Whereupon, at 5:34 p.m., the Committee was adjourned.]
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] 36562.200
    
    [GRAPHIC] [TIFF OMITTED] 36562.201
    
    [GRAPHIC] [TIFF OMITTED] 36562.202
    
    [GRAPHIC] [TIFF OMITTED] 36562.203
    
    [GRAPHIC] [TIFF OMITTED] 36562.204
    
    [GRAPHIC] [TIFF OMITTED] 36562.205
    
    [GRAPHIC] [TIFF OMITTED] 36562.206
    
    [GRAPHIC] [TIFF OMITTED] 36562.207
    
    [GRAPHIC] [TIFF OMITTED] 36562.208
    
    [GRAPHIC] [TIFF OMITTED] 36562.209
    
    [GRAPHIC] [TIFF OMITTED] 36562.210
    
    [GRAPHIC] [TIFF OMITTED] 36562.211
    
    [GRAPHIC] [TIFF OMITTED] 36562.212
    
    [GRAPHIC] [TIFF OMITTED] 36562.213
    
    [GRAPHIC] [TIFF OMITTED] 36562.214
    
    [GRAPHIC] [TIFF OMITTED] 36562.215
    
    [GRAPHIC] [TIFF OMITTED] 36562.216
    
    [GRAPHIC] [TIFF OMITTED] 36562.217
    
    [GRAPHIC] [TIFF OMITTED] 36562.218
    
    [GRAPHIC] [TIFF OMITTED] 36562.219
    

</pre></body></html>
